<html>
<title> - CHALLENGES TO FREEDOM OF SPEECH ON COLLEGE CAMPUSES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]











          CHALLENGES TO FREEDOM OF SPEECH ON COLLEGE CAMPUSES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON HEALTHCARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                AND THE

               SUBCOMMITTEE ON INTERGOVERNMENTAL AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2017

                               __________

                           Serial No. 115-30

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-855 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
    Kevin Eichinger, HealthCare, Benefits and Administrative Rules 
                      Subcommittee Staff Director
   Christina Aizcorbe, Intergovernmental Affairs Subcommittee Staff 
                                Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
     Subcommittee on HealthCare, Benefits and Administrative Rules

                       Jim Jordan, Ohio, Chairman
Mark Walker, North Carolina, Vice    Raja Krishnamoorthi, Illinois, 
    Chair                                Ranking Minority Member
Darrell E. Issa, California          Jim Cooper, Tennessee
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Scott DesJarlais, Tennessee              Columbia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Glenn Grothman, Wisconsin            Bonnie Watson Coleman, New Jersey
Paul Mitchell, Michigan              Stacey E. Plaskett, Virgin Islands
                                 ------                                

               Subcommittee on Intergovernmental Affairs

                     Gary Palmer, Alabama, Chairman
Glenn Grothman, Wisconsin, Vice      Val Butler Demings, Florida, 
    Chair                                Ranking Minority Member
John J. Duncan, Jr., Tennessee       Mark DeSaulnier, California
Virginia Foxx, North Carolina        Matt Cartwright, Pennsylvania
Thomas Massie, Kentucky              Wm. Lacy Clay, Missouri
Mark Walker, North Carolina          Vacancy
Mark Sanford, South Carolina

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2017....................................     1

                               WITNESSES

Ms. Nadine Strossen, John Marshall Harlan II Professor of Law, 
  New York Law School
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Ben Shapiro, Editor-in-Chief, The Daily Wire
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Adam Carolla, Comedian and Filmmaker, No Safe Spaces 
  Documentary
    Oral Statement...............................................    26
    Written Statement............................................    28
Dr. Michael Zimmerman, Former Provost and Vice President for 
  Academic Affairs, The Evergreen State College
    Oral Statement...............................................    33
    Written Statement............................................    35
Mr. Frederick Lawrence, Secretary and CEO, The Phi Beta Kappa 
  Society on behalf of the Anti-Defamation League
    Oral Statement...............................................    40
    Written Statement............................................    42

                                APPENDIX

Ms. Taylor A. Dumpson Congressional Statement submitted by Ms. 
  Demings........................................................    96
``Kellogg Community College Responds to Political Organizations 
  Lawsuit'' submitted by Ms. Demings.............................    99
 
          CHALLENGES TO FREEDOM OF SPEECH ON COLLEGE CAMPUSES

                              ----------                              


                        Thursday, July 27, 2017

                   House of Representatives
         Subcommittee on HealthCare, Benefits, and 
 Administrative Rules, joint with the Subcommittee 
                      on Intergovernmental Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 9:04 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the Subcommittee on Health Care, Benefits, and 
Administrative Rules] presiding.
    Present from Subcommittee on HealthCare, Benefits, and 
Administrative Rules: Representatives Jordan, Walker, Meadows, 
Grothman, Mitchell, Krishnamoorthi, Norton, Kelly, and 
Plaskett.
    Present from Subcommittee on Intergovernmental Affairs: 
Representatives Palmer, Grothman, Foxx, Massie, Walker, 
Demings, and DeSaulnier.
    Also Present: Representatives DeSantis, Hice, Brat, Rooney, 
and Raskin.
    Mr. Jordan. The joint subcommittees will come to order.
    We are going to start with a short 50-second video clip, 
then opening statements, and then get right to our esteemed 
panel of witnesses, so let's start with the video.
    [Video shown.]
    Mr. Jordan. Well, trigger warnings, safe spaces, safe 
zones, shout-downs, microaggressions, bias response teams, and, 
as we saw from the video, even riots on campuses today.
    I want to thank you all for joining us in the audience and 
certainly our witnesses today. This is our second in a series 
of hearings to highlight the First Amendment. ``The history of 
intellectual growth and discovery clearly demonstrates the need 
for unfettered freedom, the right to think the unthinkable, 
discuss the unmentionable, and challenge the unchallengeable.'' 
That quote, taken from the 1974 Woodward Report at Yale, 
summarizes the policy that was for years the gold standard of 
what free speech on campus should look like.
    College is a place for young minds to be intellectually 
bombarded with new, challenging ideas. Unfortunately, today, on 
many campuses students and faculty are forced into self-
censorship out of fear of triggering violating a safe space, a 
microaggression, or being targeted by a bias response team. 
Restricting speech that does not conform to popular opinion 
contradicts the First Amendment principles and the right to 
speak freely without regard to offensiveness. Shout-downs, 
disinvitations, and even violent rioting, as we saw on the 
video, are some of the tactics used to silence opposing views.
    In the most recent example of how not to promote free 
speech on campus, students and even faculty at Evergreen State 
College berated and threatened a professor for questioning why 
a new campus initiative could not be debated. The police 
eventually stepped in to warn the professor it was no longer 
safe--think about this--no longer safe for him to actually come 
to campus.
    The college administrators stood by and did nothing. In 
fact, when asked to come and defend their speech policies at 
today's hearing, Evergreen's president George Bridges refused 
to testify, suggesting such policies truly are indefensible. 
And he was not the only one to decline an invitation to defend 
the policies that limit speech and ideas on our college 
campuses.
    I see in this past academic year violent disruptions and 
silencing of opposing opinions are detrimental to an 
educational environment where students can learn and engage in 
civil discourse. This has serious ramifications for our public 
education system.
    This committee is committed to help colleges reinstate the 
freedom of speech as an important protection. After all, it is 
no coincidence that the Constitution's Framers prioritized the 
freedom of speech in the First, the First Amendment.
    Mr. Jordan. With that, I would like to recognize Mr. 
Krishnamoorthi, the gentleman from Illinois, for his opening 
statement.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman, and thank you, 
Chairman Palmer, and Ranking Member Demings, and thank you all 
for being here today.
    Free speech is a cornerstone of this nation's commitment to 
ensure that we have the most robust and wide-open discussion on 
issues that affect the public. Our First Amendment protections 
are among our most cherished rights. While certain restrictions 
on the time, place, and manner of speech can exist, any law 
that seeks to limit the substance of speech should be 
approached with great caution. Restrictions may exist on how, 
when, and where people say things, but the government 
fundamentally should not restrict what people say.
    The Supreme Court has rightly held that practically any 
peaceably expressed idea cannot be suppressed by law, no matter 
how unpopular, repugnant, crude, or ill-informed it may be. 
However, free speech does not mean the right to be free from 
criticism. As I have a right to state my view, you have a right 
to disagree vocally, passionately, and peaceably. No idea 
should be free from criticism.
    This is why I am particularly concerned about a potential 
bill that is going to be discussed today, a Wisconsin bill that 
would allow for the suspension or expulsion of any University 
of Wisconsin student who engages in, quote, ``indecent, 
profane, boisterous, obscene, unreasonably loud, or other 
disorderly conduct that interferes with the free expression of 
others.'' This law does not merely seek to restrict the time, 
manner, or place of speech, but it threatens students with 
disciplinary action for exercising their First Amendment 
rights.
    While nobody should interfere with anyone else's free 
expression, this bill, as drafted, opens the door for the State 
Government to quash any form of student protest its officials 
do not agree with whenever officials deemed the conduct to be, 
quote/unquote, ``indecent,'' quote/unquote, ``boisterous,'' or 
quote/unquote, ``profane.''
    Regardless of the intentions behind this bill, I am very 
concerned about the chilling effect on the rights of students 
to speak out against the ideas of others with whom they 
disagree. Ironically, while proponents of the Wisconsin bill 
claim that it is to protect free speech at the university, the 
bill's threat of harsh discipline against students who express 
their opinions would have precisely the opposite effect.
    The Anti-Defamation League, which has worked for over a 
century to protect American civil rights and is represented 
here today, has raised legitimate concerns with legislative 
efforts that would inhibit the free speech rights of students 
on any side of the debate. As the ADL points out, protecting 
free speech on college campuses should not be partisan, and 
most importantly, should not be legislated by Congress. Rather, 
it should be left in the hands of the Academy.
    To that effect, it is critical that in looking to address 
the challenges of free speech we do not do the very thing some 
here today have criticized colleges in doing, suppressing 
certain forms of speech that may not be popular or as offensive 
to others.
    As we examine the issue of free speech at our nation's 
colleges, we are fortunate to be joined today by Mr. Fred 
Lawrence, the former president of Brandeis University, and who 
can speak from firsthand experience the challenges university 
administrators face in balancing free-speech rights on 
campuses. Mr. Lawrence understands the complexities of running 
a university in a way that legislatures do not and can explain 
for us the difficulties campuses face when addressing free-
speech challenges.
    Ironically, we have a situation here where we see some of 
my colleagues advocating for more government intrusion in an 
effort to quell the rights of students to challenge the ideas 
of speakers they may have profound disagreements with. But just 
as important as it is for us to stand up for the rights of 
others to engage in speech that may be deeply offensive to 
some, it is just as critical that we stand up for the rights of 
students to protest and speak out against speech they disagree 
with. That isn't going to happen because of greater, more 
restrictive legislation such as the Wisconsin bill. It will 
happen because colleges and universities are allowed the 
freedom and flexibility to encourage open expression among 
students and faculty.
    Thank you, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    I would now recognize the subcommittee chairman, Mr. 
Palmer.
    Mr. Palmer. I yield my time to the gentlewoman from North 
Carolina, Ms. Foxx.
    Mr. Jordan. The gentlelady is recognized.
    Ms. Foxx. Thank you, Mr. Chairman, and I thank Chairman 
Palmer for giving me the opportunity to say a few words on this 
issue.
    I welcome everyone to this joint subcommittee hearing 
today, which is of particular interest to so many of us. It is 
a real privilege for me to continue to serve on this committee 
while serving as chairwoman of the House Committee on Education 
and the Workforce. Many of you know I spent most of my adult 
life in higher education as both an instructor and 
administrator on a college campus.
    Our Founders believed that a free expression of ideas and 
speech were an essential foundation to our nation and captured 
its importance in the First Amendment. George Washington said 
it perfectly in 1783. ``If men''--or women he might add today--
``are to be precluded from offering their sentiments on a 
matter which may involve the most serious and alarming 
consequences that can invite the consideration of mankind, 
reason is of no use to us. The freedom of speech may be taken 
away, and, dumb and silent, we may be led like sheep to the 
slaughter.''
    Throughout our nation's history, we the people have 
defended our right to express our beliefs and opinions, no 
matter how unpopular, without the fear of retribution. While 
the way in which we express ourselves has changed since our 
nation's founding, Americans still hold tight to the belief 
that freedom of speech and expression are fundamental to who we 
are as a people.
    According to a 2015 Pew Research poll, 95 percent of 
Americans believe that people should be able to make statements 
that publicly criticize the government. Roughly 70 percent of 
Americans also considered it very important for people to be 
able to use the internet without government censorship on 
matters of free speech. Apparently, this poll did not take into 
account individuals on college campuses who seem to disagree.
    We are seeing a steady rise in anti-speech attacks on 
students, faculty, and invited speakers on our campuses. 
Pressure from students, faculty, and free-speech advocates has 
put college administrators in a difficult position, and the 
committee understands their frustration. It is difficult to 
manage a campus when dealing with campus protests and other 
disruptions by students or other members of the campus 
community who simply do not want a certain point of view 
expressed on their campuses.
    College campuses are supposed to be places where students 
and instructors are able to share in diverse conversations on 
any topic in order to better understand our society. In my 
years in the classroom, I loved to see students thoughtfully 
and respectfully discuss the conflicting ideas. I believe to 
this day those discussions help many students learn to express 
themselves. As a lifelong learner, they helped me, too.
    I have often told people that the greatest compliment I 
ever received as a teacher was at the end of the semester 
evaluations when many of my students would say, ``She taught me 
how to think.'' There just is no greater compliment than that.
    When we stifle free speech at our institutions of higher 
education, we are depriving students of an open environment of 
thoughts and opinions. This is especially true for public 
colleges and universities that receive direct taxpayer funding. 
Our public institutions of higher education should not be 
engaged in activities that would stifle any constitutionally 
protected speech of a member or invited guest in the 
educational community. And while private colleges and 
universities do not have the same constitutional obligations as 
their public counterparts, I hope we can all agree that they 
should do what they can to ensure their campuses foster robust 
discussions that include all views.
    Today's joint subcommittee hearing will explore these 
concerns, as well as how colleges may address these issues 
without unconstitutional restrictions on free speech. The First 
Amendment promises a freedom of expression for all Americans, 
and it is the duty of Congress to ensure that those rights are 
protected on the campuses of our public colleges and 
universities. While Congress is not in the business of defining 
what is and what is not protected by the First Amendment, we 
must guarantee this fundamental right is upheld.
    I look forward to hearing from our witnesses and members 
today as we have this important discussion on one of our 
nation's most central rights.
    Mr. Jordan. I thank the gentlelady for her statement and 
her service as the Education and Workforce chairman.
    And we now recognize the ranking member of the 
subcommittee, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman, and thank 
you to our ranking member, Mr. Krishnamoorthi, as well.
    Good morning, everyone, and thank you all so much for being 
here.
    I grew up in Jacksonville, Florida. My mother was a maid, 
and my father, a janitor. But in spite of their lack of 
material wealth, they gave me everything they had to support me 
and prepare me mentally, physically, and spiritually to 
succeed.
    I am the youngest of seven children but the first in my 
family to go to college. My parents' life lessons helped to 
guide me in college when it was clear that there were some who 
did not want me there. When I joined the Orlando Police 
Department when women and other minorities were still trying to 
find their way, my parents' life lessons guided me, and even 
here, they still guide me in the United States Congress.
    I have taken three oaths in my lifetime, one as a young 
police officer in 1984, one when I was sworn in as the police 
chief, and the third when I was sworn in as a Member to serve 
in the 115th session of the U.S. House of Representatives. In 
each oath, I swore that I would protect and defend the 
Constitution of the United States against all enemies, foreign 
and domestic. I have taken each oath very, very seriously.
    As a law enforcement officer, I had several occasions to 
provide security for many groups while they exercised their 
First Amendment rights, groups like the Ku Klux Klan and the 
neo-Nazi movement. There, I was providing much-needed 
protection, and if anyone, someone, anyone had tried to harm 
them in any way, I would have risked my life to protect them, 
not because I agreed with their speech but because I agreed 
with their right to speak, their right as guaranteed by the 
First Amendment.
    I appreciate this opportunity to shine a light on the real 
clear and present danger facing colleges and universities 
around the Nation. The problem is not high-profile speakers 
like Ann Coulter. The clear and present danger is the increase 
in white supremacist hate groups on campuses and the targeting 
and harassing of students because of their race, religion, 
gender, and sexual identity.
    For the 2016 and 2017 school year, the Anti-Defamation 
League reported that students, faculty, and staff on 110 
American college campuses were confronted by 159 separate 
incidents of racist flyers and stickers. The Southern Poverty 
Law Center reported that in 10 days alone after last year's 
election there were 140 incidents of hate bias attacks on 
university campuses.
    Most recently, on May 1 of this year at American 
University, bananas tied with nooses were hung across the 
campus after the school elected its first African-American 
student government president Taylor Dumpson, who I understand 
is with us today. Now, I was proud when Taylor was elected 
because it demonstrated our progress, much-needed progress as a 
nation, but the words ``AKA free'' were written on the bananas, 
referring to the predominantly African-American sorority, of 
which Taylor is a member. Taylor was also subjected to a cyber 
bullying campaign by a white supremacist group on social media. 
The Federal Bureau of Investigation is investigating these 
unprotected illegal expressions of speech that Taylor was 
subjected to as a hate crime. The operative word here is crime.
    Mr. Chairman, I would ask that a written statement from 
Taylor about the hate speech attacks and harassment she was 
subjected to on the campus of American University be included 
in the hearing record.
    Mr. Jordan. Without objection.
    Mrs. Demings. Thank you so much. As Taylor explained, and I 
quote, ``I applied to college,'' like all of our children do. 
``When I applied, I thought I would meet new people and learn 
new things, not be the victim of a racially motivated hate 
crime and cyber bullying that would interrupt my academics and 
disrupt my mental, emotional, and physical health.'' As stated 
earlier, what happened in Taylor's case is being investigated 
by the FBI.
    Mr. Chairman, public safety trumps everything.
    For students like Taylor, the issue of free speech on 
college campuses isn't a right or left issue. Rather, it is 
about criminal acts being wrapped in banners of free speech. It 
is knowing that the symbols and language from 400 years of 
torture and terror are enough to strike fear in the hearts of 
every student of color.
    As we examine the issue of free speech on college campuses, 
let's keep the focus on addressing some of the real danger, 
which are any acts of violence, attempts to threaten, 
intimidate, bully, harass, or violate any laws that this nation 
holds quite dear. For even with the guiding principles of the 
United States Constitution, we are a nation of laws, and public 
safety always has been and still is my number-one concern.
    Thank you so much, Mr. Chairman, and I yield back.
    Mr. Jordan. I thank the gentlelady.
    Without objection, the chair is authorized to declare a 
recess at any time, and the chair will also hold open for five 
legislative days for any members who would like to submit a 
written statement.
    Finally, the chair welcomes Mr. Blum, Mr. DeSantis this 
morning, and the chair also notes the presence of Congressman 
Brad Thompson and Mr. Rooney. Without objection, these members 
are welcome to fully participate in today's hearing.
    I want to show one other quick video clip before we get to 
our panel, and this is about 20 seconds. We can show that real 
quick.
    [Video shown.]
    Mr. Jordan. This is where it all ends. You start with the 
safe spaces, safe zone, trigger warnings, microaggressions, 
bias response teams, and even riots, as we saw on the first 
video, and where does it end? It ends with students holding 
hostage a president of the university, and he has to ask 
permission to go to the men's room. That is why we are having 
this hearing. That is why we are highlighting the attacks on 
the First Amendment.
    And now, I am pleased to recognize our distinguished panel. 
I would like to start with Ms. Nadine Strossen, law professor 
at NYU University, and also a long career working with the 
American Civil Liberties Union. We welcome you here, Ms. 
Strossen.
    Mr. Ben Shapiro, editor-in-chief of the Daily Wire and 
columnist. We appreciate you being here as well, Mr. Shapiro.
    Mr. Adam Carolla, comedian, radio personality, and TV host, 
welcome as well.
    Dr. Zimmerman, former provost and vice president for 
academic affairs at Evergreen State College, the college that 
was just part of that last video clip; and more importantly, 
former president, Oberlin College in the 4th District of Ohio. 
We welcome you, Mr. Zimmerman, as well.
    And Mr. Frederick Lawrence with the Anti-Defamation League, 
welcome as well.
    Pursuant to committee rules, we actually all stand and be 
sworn in, so if you please stand, raise your right hand.
    [Witnesses sworn.]
    Mr. Jordan. Let the record show that everyone answered in 
the affirmative.
    Ms. Strossen, you know how this works; you have done it 
before. You get five minutes more or less. We appreciate less, 
but somewhere in that vicinity would be great. And you are now 
recognized for your five minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF NADINE STROSSEN

    Ms. Strossen. Thank you so much, Chairman Gordon and--
Jordan and other distinguished committee members. I am so 
grateful for your eloquent, fervent commitment to freedom of 
speech and especially on college campuses where it's 
particularly important, and for including me in these important 
hearings.
    As the opening statements have made clear, all of us share 
a general neutral commitment to freedom of speech in the 
abstract, but the difficulty is when we hear ideas that we 
hate. It becomes very hard, as Justice Oliver Wendell Holmes 
enjoined us all to do, to defend freedom even for the thought 
that we hate. So, I urge all students and others on campus to 
respect freedom of speech for speakers they strongly disagree 
with, but I also--picking up on the point that Mr. 
Krishnamoorthi made, also firmly defend freedom of speech for 
protesters, for peaceful, non-disruptive protesters against 
those speakers. This is the genius of the First Amendment.
    I share the concern that Mrs. Demings raised and also that 
Mr. Jordan raised about violations of law. You know, the legal 
infractions, the crimes that were committed against the 
administrators that we saw, but crimes, including hate crimes 
that are committed against students, we do not need to choose 
between robust freedom of speech and these countervailing 
concerns of equality and respecting law and order. The question 
is what is the appropriate response to ideas that we disagree 
with, including hateful ideas.
    And here, I'm happy to say that the Anti-Defamation League, 
the Southern Poverty Law Center, the ACLU, we are all on the 
same page, that we need not and should not sacrifice robust 
freedom of speech in order to counter hateful ideas and hate 
crimes. In fact, the appropriate answer, as the Supreme Court 
has said, is more speech, counter speech. And interestingly 
enough, evidence demonstrates that it is far more effective 
than censorship in robustly, effectively countering ideas that 
we disagree with.
    I'm working on a book right now, and this is the whole 
theme of the book summed up in the title, HATE, all caps 
because that is a very serious problem in this country, but the 
subtitle is Fighting It with Free Speech, Not Censorship.
    And we really have to educate the activists, the students 
on today's campuses. I have to say, as an activist from the 
'60s and '70s, I'm thrilled by the resurgence of student 
activism in support of racial justice and social justice. I'm 
really heartened by their bringing in voices who were 
traditionally marginalized and disempowered, but I am 
disheartened by their apparent belief that freedom of speech is 
an enemy. Nothing could be further from the truth. The whole 
struggle for racial justice throughout the history of this 
country, starting with the abolitionists, going through the 
civil rights movement, and every movement for social justice, 
including for women's rights and LGBT rights has depended 
critically on robust freedom of speech, including for ideas 
that were controversial and hated.
    Now, in addition to misunderstanding how essential freedom 
of speech, including for hated ideas and hateful speech, is 
there is too much misunderstanding about what the First 
Amendment actually means. We hear too many statements about so-
called hate speech, which, by the way, has no--is not a legal 
term of art. It has no accepted definition, so it is generally 
used to describe speech that conveys hateful ideas on the basis 
of certain personal characteristics that traditionally have 
been bases of discrimination: race, religion, gender, and 
sexual orientation, among others.
    We hear constantly statements that hate speech is not free 
speech, absolutely wrong, but we also hear equally incorrect 
statements that hate speech is absolutely protected, also 
equally wrong. The genius of our Supreme Court decisions on 
this issue--and here the Court has been very unified from right 
to left, setting a model that we should all emulate in the rest 
of the world. This is not a partisan or ideological issue. They 
have laid down two core free-speech principles, one when hate 
speech or any other dislike speech may not be punished and one 
when it may be punished, and I think they are brilliant and 
make great common sense, including in this context.
    Number one, speech may never be censored just because we 
revile its ideas. That's called viewpoint neutrality. Number 
two, and this picks up on points that Mrs. Demings in 
particular made and was also made by other speakers, the 
opening speakers, that if the speech does cause what is often 
called a clear and present danger of harm, including instilling 
a reasonable fear that you will be attacked, the incidence of 
the nooses, that constituted targeted harassment and threats, 
which may and should be punished consistent with existing free-
speech principles.
    So, I think if people understood both the commonsense 
distinction that our law draws between protecting ideas that we 
hate versus not protecting but strongly punishing speech that 
actually directly causes imminent serious harm, then there 
would be much more acceptance of it. And I'd like to--and 
support for it neutrally.
    I'd like to end by quoting--there are so many that I could 
quote--prominent minority leaders who recently have spoken out 
against censorship on campus not only because it is wrong in 
principle, but also because it is disempowering to the student 
activists who are seeking greater justice. And there are many 
examples. One would be former President Obama himself, but I'm 
going to quote somebody who is actually a university president, 
Ruth Simmons, former president of Brown University, the first 
African-American president of any Ivy League university and the 
first female president of Brown. She said, ``I believe that 
learning at its best is the antithesis of comfort, so if you 
come to this campus for comfort, I would urge you to walk 
through yon iron gate, but if you seek betterment for yourself, 
for your community, and posterity, stay and fight.''
    Thank you.
    [Prepared statement of Ms. Strossen follows:]
    [GRAPHIC] [TIFF OMITTED] T6855.001
    
    [GRAPHIC] [TIFF OMITTED] T6855.002
    
    [GRAPHIC] [TIFF OMITTED] T6855.003
    
    [GRAPHIC] [TIFF OMITTED] T6855.004
    
    [GRAPHIC] [TIFF OMITTED] T6855.005
    
    [GRAPHIC] [TIFF OMITTED] T6855.006
    
    [GRAPHIC] [TIFF OMITTED] T6855.007
    
    [GRAPHIC] [TIFF OMITTED] T6855.008
    
    [GRAPHIC] [TIFF OMITTED] T6855.009
    
    [GRAPHIC] [TIFF OMITTED] T6855.010
    
    [GRAPHIC] [TIFF OMITTED] T6855.011
    
    Mr. Jordan. Thank you, Ms. Strossen.
    Mr. Shapiro?

                    STATEMENT OF BEN SHAPIRO

    Mr. Shapiro. It's an honor to testify before you here 
today.
    The reason that I'm with you is that I speak on dozens of 
college campuses every year, so I have some firsthand 
experience with the anti-First Amendment activities that have 
been taking place on the college campuses. I've encountered 
anti-free speech measures, administrative cowardice, even 
physical violence on campuses ranging from California State 
University at Los Angeles to University of Wisconsin at 
Madison, which is driving the legislation that Mrs. Demings was 
talking about, to Penn State University to UC Berkeley, and I 
am not alone.
    In order to understand what's been going on at some of our 
college campuses, it's necessary to explore the ideology that 
provides the impetus for a lot of the protesters who violently 
obstruct events, pull fire alarms, assault professors and even 
other students, and the impetus for administrators who all too 
often humor these protesters.
    Free speech is under assault because of a three-step 
argument made by the advocates and justifiers of violence. The 
first step is they say that the validity or invalidity of an 
argument can be judged solely by the ethnic, sexual, racial, or 
cultural identity of the person making the argument. The second 
step is if they claim those who say otherwise are engaging in 
what they call verbal violence. And the final step is they 
conclude that physical violence is sometimes justified in order 
to stop such verbal violence.
    So let's examine each of these three steps in turn. First, 
the philosophy of intersectionality. This philosophy now 
dominates college campuses, as well as a large segment, 
unfortunately, of today's Democratic Party and suggests that 
straight white Americans are inherently the beneficiaries of 
white privilege and therefore cannot speak on certain policies 
since they've not experienced what it's like to be black or 
Hispanic or gay or transgender or a woman. This philosophy 
ranks the value of a view not based on the logic or merit of 
the view but on the level of victimization in American society 
experienced by the person espousing the view. Therefore, if 
you're an LGBT black woman, your view of American society is 
automatically more valuable than that of a straight white male.
    The next step in the logic is obvious. If a straight white 
male or anybody else who ranks lower on the victimhood scale 
says something contrary to the viewpoints of the higher-ranking 
intersectional--intersectionality identity, that person has 
engaged in a microaggression. As NYU social psychologist 
Jonathan Haidt writes, ``Microaggressions are small actions or 
word choices that seem on their face to have no malicious 
intent but that are thought of as a kind of violence 
nonetheless.''
    You don't have to actively say anything insulting to 
microaggress. Somebody merely needs to take offense. If, for 
example, you say that society ought to be colorblind, you are 
microaggressing certain identity groups who have been 
victimized by a non-colorblind society. Note, microaggressions, 
as the name suggests, are not merely insults. They are 
aggressions. They are the equivalent of physical violence.
    Just two weeks ago, psychologist Lisa Feldman Barrett of 
Northeastern University published an essay in The New York 
Times suggesting that words should be seen as physical violence 
because they can cause stress and stress causes physical harm. 
Thus, Feldman suggested it is reasonable scientifically 
speaking to ban or restrict speech you do not like at your 
school. This is both inane and dangerous. That's because it 
leads to the final logical step, words you don't like deserve 
to be fought physically.
    When I spoke at California State University L.A., one 
professor threatened students who sponsor me by offering to 
fight them. He then posted a slogan on the door of his office 
stating, ``The best response to microaggression is 
macroaggression.'' As Haidt writes, ``This is why the idea that 
speech as violence is so dangerous. It tells the members of a 
generation already beset by anxiety and depression that the 
world is a far more violent and threatening place than it 
really is.'' It tells them words, ideas, speakers can literally 
kill them, even worse, at a time of rapidly rising political 
polarization in the United States, it helps a small subset of 
that generation justify political violence.
    Indeed, protesters all too often engage in physically 
violent disruption when they believe their identity group is 
under verbal attack by someone, usually a conservative but not 
always. Not only do some administrators look the other way, at 
Middlebury College, Cal State L.A., Berkeley, Evergreen, actual 
crimes were committed and almost nobody has been arrested. But 
they actively forbid events from moving forward, creating a 
heckler's veto, the notion that if you are physically violent 
enough, you can get administrators to kowtow to you, to bow 
before you by canceling an event you disagree with altogether. 
All of this destroys free speech. But just as importantly, it 
turns students into snowflakes, craven and pathetic, looking 
for an excuse to be offended so they can earn points in the 
intersectionality Olympics and then use those points as a club 
with which to beat opponents.
    A healthy nation requires an emotionally and intellectually 
vigorous population ready to engage in open debate at all 
times. Shielding college students from opposing viewpoints 
makes them simultaneously weaker and more dangerous. We must 
fight that process at every step, and that begins by 
acknowledging that whatever we think about America and where we 
stand, we must agree on this fundamental principle: All of our 
views should be judged on their merits, not on the color or sex 
or sexual orientation of the speaker, and those views should 
never be banned on the grounds that they offend someone.
    Thanks so much.
    [Prepared Statement of Mr. Shapiro follows:]
    [GRAPHIC] [TIFF OMITTED] T6855.012
    
    [GRAPHIC] [TIFF OMITTED] T6855.013
    
    [GRAPHIC] [TIFF OMITTED] T6855.014
    
    Mr. Jordan. Mr. Shapiro, would the professors you cited in 
your testimony view your 4 minute and 48 second opening 
statement as a microaggression?
    Mr. Shapiro. I assume that some of them would. I mean, 
apparently, college students do all the time since when I speak 
there I've been ----
    Mr. Jordan. I think they ----
    Mr. Shapiro.--there have been riots and such.
    Mr. Jordan. I think they definitely will, which is kind of 
a sign of the times, I guess.
    Mr. Carolla, you are recognized for five minutes.

                   STATEMENT OF ADAM CAROLLA

    Mr. Carolla. Thank you. It's an honor to be asked to speak 
in front of you all.
    First, just a quick piece of business. Do we get to keep 
these pads? This is going to be huge. And not that I'm going 
to, but what do you reckon they'll get on eBay? I'm not saying 
I'm going to, but it's just pure curiosity.
    I'm not as eloquent as Mr. Shapiro. I sort of speak in 
beats and off the top of my head, and I've written a few down 
for you all today.
    First off, I come from a very blue-collar background. I 
grew up in North Hollywood, California. My dad was a 
schoolteacher, and my mom received welfare and food stamps and 
told me very importantly when I was young when I asked her if 
she would get a job, she said, ``And lose my welfare benefits? 
No, thank you,'' which taught me a very valuable lesson, which 
is never to listen to my mom.
    All right. I ended up being a carpenter and then a boxing 
instructor and met Jimmy Kimmel when I taught him to box for a 
morning zoo stunt and eventually made my way onto TV and radio. 
In the early days of my career, I toured the country with Dr. 
Drew when we were on Loveline together, a syndicated radio 
program also on MTV, and we must have played 100 college 
campuses with nary a word of negativity and no safe spaces and 
no stuffed animals being handed out, simply went there, said 
our piece. Many controversial ideas were exchanged, and that's 
just what they were, exchanged, and then we got our paychecks 
and went home.
    And 15 years later, I went out with Dennis Prager, a 
conservative talk show host, and attempted to do a show at Cal 
State Northridge where my mother was an actual graduate from 
with a Chicano studies degree, believe it or not. So, she's 
rolling in dough about now.
    And they pulled the plug on it. They gave us no good reason 
why we couldn't speak there, and we actually had to get 
attorneys involved to go back and speak at a later date.
    We're talking a lot about the kids, and I think they're 
just that, kids. We are the adults, and I don't think we are 
doing the children--I mean, these are 18- and 19-year-old kids 
that are at these college campuses. They grew up dipped in 
Purell, playing soccer games where they never kept score, and 
watching Wow! Wow! Wubbzy! and we're asking them to be mature. 
We need the adults to start being the adults.
    Studies have shown that if you take people and you put them 
in a zero-gravity environment like astronauts, they lose muscle 
mass, they lose bone density. We're taking these kids in the 
name of protection, we're putting them in a zero-gravity 
environment, and they're losing muscle mass and bone density. 
They need to live in a world that has gravity.
    When you--you need to expose your children to germs and 
dirt in the environment to build up their immune system. Our 
plan is put them in a bubble, keep them away from everything, 
and somehow they'll come out stronger when they emerge from the 
bubble. Well, that's not happening.
    Children are the future, but we are the present and we're 
the adults and we need to act like it. And I feel that what's 
going on on these campuses is--we need law and order. We need 
to bring back law and order, but I think if we just had order, 
we wouldn't need law. So, could we just bring back order, and 
could the faculty and administration on these campuses act like 
faculty and administration, and, most importantly, adults who 
are in charge of these kids who need some gravity in their 
life. Thank you.
    [Prepared Statement of Mr. Carolla follows:]
    [GRAPHIC] [TIFF OMITTED] T6855.015
    
    [GRAPHIC] [TIFF OMITTED] T6855.016
    
    [GRAPHIC] [TIFF OMITTED] T6855.017
    
    [GRAPHIC] [TIFF OMITTED] T6855.018
    
    [GRAPHIC] [TIFF OMITTED] T6855.019
    
    Mr. Jordan. Well said. Well said. Thank you, Mr. Carolla.
    And, Mr. Zimmerman, or Dr. Zimmerman, excuse me, you are 
now recognized for your opening statement.

                 STATEMENT OF MICHAEL ZIMMERMAN

    Mr. Zimmerman. Mr. Chairman, members of the committee, 
thank you for inviting me to speak with you about the 
importance of freedom of speech on college campuses.
    I begin by making two points that are intricately related 
to the issue. First, I believe it's important to recognize that 
racism in American society, both overt racism as well as more 
subtle but no less important forms of institutional racism, is 
very real and needs to be addressed.
    Second, nothing that anyone might say today should 
undermine the critical role that colleges and universities play 
in American society. While these institutions aren't perfect 
and while those of us in the Academy need to work toward 
improvement, higher education has been and remains the single 
best way for individuals to dramatically improve their 
socioeconomic status. Beyond that personal benefit, there's 
ample evidence demonstrating that society is richer when it's 
well-populated by an educated citizenry.
    I've spent almost 40 years working at institutions as a 
faculty member and administrator promoting the value of a 
liberal arts education. Such an education should teach students 
how to think rather than what to think. It should teach them 
how to differentiate facts from opinions, and it should teach 
them how to articulate their thoughts cogently rather than 
repeating those of others.
    As we've all seen, there have been problems on American 
campuses. Some voices have not been welcomed, while others have 
been violently excluded. Let me say this as clearly as I can. 
This is wrong and it must stop. But what we don't need is 
additional legislation. We currently have all the tools we need 
to fix the problem if we have the courage to use them. College 
administrators need the courage to do what is right, to stand 
for principles rather than expediency, and to risk alienating 
some in the name of those principles.
    On campuses where such strong leadership exists, conflict 
rarely escalates to crisis. At the same time, faculty members 
need to hold their colleagues accountable. The problems we've 
seen on campuses are not, I'm confident, supported by the vast 
number of faculty members. But most faculty have opted to 
remain silent, to censor themselves, and therefore, they've 
ceded control of their institutions to a small but vocal 
minority.
    This silence is understandable. Speaking out distracts 
people from their important work of teaching and scholarship, 
while often bringing them into conflict with their colleagues. 
Asking faculty to encourage civil discussion and to celebrate a 
range of voices and perspectives is asking a great deal of 
them, more than we see in our political discourse. But if 
diverse opinions are not celebrated on campuses where were 
supposed to be trafficking in ideas, I doubt they'll find any 
welcoming environment. When we shut out voices, we shut out 
ideas, and serious consequences ensue.
    Part of the problem on campuses I believe stems from a rise 
in the belief that all knowledge is socially constructed and 
that there are no absolute truths, or the concept of 
postmodernism, as it is known in academic circles. Why has this 
idea made a comeback now? One possibility is that the 
relentless disparagement many have leveled on disciplines and 
the humanities, arts, and social sciences has led to a 
backlash. It shouldn't be surprising that when practitioners 
see their fields portrayed as useless by those who promote only 
STEM--science, technology, engineering, and mathematics--they 
push back, and the resistance often manifests itself as 
antipathy towards science.
    When we marginalize certain voices, we all lose. We need to 
recognize that disciplines each bring something important to 
our understanding of the world. Privileging some fields over 
others yields a fragmented and incomplete picture. I say this 
as a scientist. As important as science is, it certainly isn't 
all there is.
    Much of the tension on campuses today comes from a similar 
historical silencing of certain voices, voices of the 
marginalized, voices of people of color, the disabled, those 
with nontraditional sexual orientations, the poor, and many 
others. As these individuals rightfully try to insert their 
voices into conversations, tensions arise. But these voices 
deserve to be a part of the conversation.
    The comparison between racism, sexism, homophobia, and 
other equally terribly discriminatory behaviors and a lack of 
appreciation for certain academic disciplines should be seen 
only as a metaphor. In the former case, people's lives and 
their experiences are discounted. Without those voices, we all 
suffer, obviously not equally, but we all suffer. The goal has 
to be to find ways to celebrate ideas, a wide array of ideas 
and the people who hold them, but such a celebration requires 
not only that more voices be at the table but that all of us 
listen to those voices. Looking beyond oneself, listening to 
what others have to say, understanding a perspective other than 
your own even if you don't agree with that perspective after 
all is what a liberal arts education is all about.
    Thank you.
    [Prepared Statement of Mr. Zimmerman follows:]
    [GRAPHIC] [TIFF OMITTED] T6855.020
    
    [GRAPHIC] [TIFF OMITTED] T6855.021
    
    [GRAPHIC] [TIFF OMITTED] T6855.022
    
    [GRAPHIC] [TIFF OMITTED] T6855.023
    
    [GRAPHIC] [TIFF OMITTED] T6855.024
    
    Mr. Jordan. I thank the gentleman.
    Mr. Lawrence?

                STATEMENT OF FREDERICK LAWRENCE

    Mr. Lawrence. Thank you, Mr. Chairman, ranking members, and 
distinguished members of the committee. I am the 10th secretary 
and the CEO of the Phi Beta Kappa Society, and I say that I am 
delighted to hear Dr. Zimmerman's celebration of the liberal 
arts and sciences. Phi Beta Kappa was founded, like our nation, 
in 1776 and dedicated to the notion of free expression, free 
inquiry, and that the liberal arts and sciences would bring us 
to a better place. Indeed, it has in this country.
    I am honored today to appear on behalf of the Anti-
Defamation League, of which I am a national commissioner and 
former chair of the National Legal Affairs Committee.
    The challenge of free expression on our campuses has never 
seemed greater, and I am grateful for the opportunity to 
address it today before this committee. I know from my years as 
a law school dean and as a university president that these 
challenges come in all directions and all contexts. They come 
from the left and they come from the right. They ----
    Mr. Jordan. Mr. Lawrence, just pull the microphone a little 
closer. Pull your mic a little closer to you there. Now, we are 
talking.
    Mr. Lawrence. Did you miss any of the good stuff, Mr. 
Chairman?
    Mr. Jordan. No, got it all. Got it all. Keep going, 
brother.
    Mr. Lawrence. I want to make sure that my board heard 
everything, Mr. Chairman.
    The challenges of free speech come from the left and they 
come from the right. They involve students, they involve 
faculty, and they involve those outside the campus who affect 
the community as invited speakers and sometimes as uninvited 
agitators. Given our current polarization in our society, it is 
perhaps no surprise that this issue presents itself with such 
urgency on our campuses today, public campuses and private 
small liberal arts schools and large research universities.
    At this moment, it is especially important to clarify first 
principles pertaining to our democracy's core values of free 
expression as they manifest themselves on our campus, and I 
would articulate two such principles. First, and I think there 
is broad agreement on this panel today on this, robust free 
expression and free inquiry are central for the mission of our 
colleges and universities. The limits of such expression are 
way out on the margins of expressive activity, and they involve 
behavior that threatens or instills fear in a victim or 
victims. Hate speech is protected, hate crimes are not.
    The second principle is that constitutionally protected 
hate speech still causes harm to members of our community. 
There is a moral imperative, therefore, for campus leaders 
vigorously to criticize hate speech, not to suppress it, not to 
prohibit it, but to identify it for what it is and to criticize 
it.
    These two principles lead me to a third conclusion, that 
efforts to legislate bright-line solutions to subtle and 
complex situations are misguided and they are doomed to fail. 
Campus administrators must be given the discretion to handle 
cases of hate speech and to judge when cases have crossed the 
line into hate crimes. If we are to do our job, as 
Congresswoman Foxx said, to teach our students how to think, 
that must be left in the hands of those on campus who are best 
equipped to make those decisions.
    Let me elaborate briefly on the two principles. Free 
expression is a core value of our system of government and our 
society, and it is especially true on our campuses. Most if not 
all of our campuses share a common mission, to discover and 
create knowledge and to transmit that knowledge through our 
teaching and our scholarship. For this mission, free expression 
and free inquiry are essential.
    I therefore start from the presumption that speech on 
campus and writings on campus are protected, but this is not a 
presumption without a limit. Where should the limit for 
expression be? Where does protected hateful speech cross over 
into being behavior that a university may prohibit and 
sanction? As is so often the case in the law, for example, in 
basic principles of criminal law, we do best to focus on the 
actor's intent. The division between that which we may protect 
and that which we may prohibit should be based on the intent of 
the actor. Is the intent to communicate, however hateful the 
idea, or is the intent to intimidate and threaten a particular 
victim?
    A recent example that helps make this point referred to by 
Ranking Member Demings, and that refers to the statement of Ms. 
Taylor Dumpson seated behind me in the room today makes the 
point. As the ranking member said, after her election as the 
first black woman to hold the position of president of the 
student government at American University, she was the victim 
of targeted hate-motivated actions, bananas hung with nooses 
with the letters of an African-American sorority. This reaches 
beyond the boundaries of free expression to a hate crime and 
has no place on an American campus.
    To be sure, not all hateful speech is similarly threatening 
and prescribable. Much is protected. What is the proper 
response when hateful speech that is protected occurs on our 
campuses? Here, I believe, as Professor Strossen said at the 
very beginning, we do well to look to Justice Louis Brandeis' 
famous dictum in the case of Whitney v. California where he 
said, ``The answer to hateful or offensive speech is not in 
forced silence, it is more speech.'' And in the face of hate 
speech on campuses, the call for more speech is not merely an 
option, it is a moral obligation on behalf of our campus 
leaders on all sides.
    We observe with alarm the disturbing increase in the number 
of cases of white supremacist activity on our campuses, as has 
been well and disturbingly documented by the Anti-Defamation 
League. But even then, the answer will generally not be the 
enforced silence of which Justice Brandeis warned. The answer 
is to assert the highest values of our academic communities. 
Doing so precisely in the context of how we debate and how we 
disagree is at the heart of the enterprise of a college or 
university.
    Thank you, Mr. Chairman.
    [[Prepared Statement of Mr. Lawrence follows:]
    [GRAPHIC] [TIFF OMITTED] T6855.025
    
    [GRAPHIC] [TIFF OMITTED] T6855.026
    
    [GRAPHIC] [TIFF OMITTED] T6855.027
    
    [GRAPHIC] [TIFF OMITTED] T6855.028
    
    [GRAPHIC] [TIFF OMITTED] T6855.029
    
    [GRAPHIC] [TIFF OMITTED] T6855.030
    
    [GRAPHIC] [TIFF OMITTED] T6855.031
    
    [GRAPHIC] [TIFF OMITTED] T6855.032
    
    [GRAPHIC] [TIFF OMITTED] T6855.033
    
    Mr. Jordan. Thank you all for your eloquent testimony. We 
appreciate that and frankly think Congress broke some new 
ground today, first reference ever to Wow! Wow! Wubbzy! in a 
congressional hearing. But we will start with the chairman of 
the Education and Workforce Committee, the gentlelady from 
North Carolina.
    Ms. Foxx. Thank you again, Mr. Chairman, and I want to 
thank our witnesses again for being here.
    As we all agree, free speech is fundamental to a free 
society. It is astonishing to me that so many young adults 
today are willing to throw those constitutionally protected 
rights out the window just because they are on a college campus 
and may disagree with the content of what is being said. 
However, it is not surprising that so many colleges are 
struggling with how to handle free-speech rights on campus.
    Mr. Zimmerman, you note in your written testimony it is 
important for colleges and universities to continue to be a 
place where free exchange of ideas, even though some may 
disagree, is allowed and even encouraged. I strongly agree. Can 
you discuss some of the challenges public colleges and 
university administrators face when trying to balance their 
constitutional responsibility to protect free speech with 
ensuring the safety of the campus community, particularly when 
opposition to that speech leads to threats of potential 
violence?
    Mr. Zimmerman. I can certainly try. It's not an easy--
there's no simple answer to that. The most important thing I 
think goes back to something Nadine Strossen said and has 
written about eloquently, and that is in American society and 
on campuses today we don't have a good enough understanding of 
what the First Amendment actually means. We need to educate 
each other within the Academy and beyond the Academy about the 
importance of freedom of speech.
    So, often on college campuses, there are two kinds of 
issues. There are the internal issues that administrators are 
more easily able to deal with if they have the courage to do 
so, and then there are the external issues, when the attacks on 
freedom of speech come from external agitators, and that's much 
more difficult because administrators don't control those 
individuals.
    Administrators have to have the courage to stand up and, as 
Mr. Lawrence has said, to speak out eloquently in favor of 
ideas that they are opposed to and make it clear--and speak out 
in favor of the opportunity for those ideas to be expressed 
while making it clear that those ideas should not be expressed 
and to call the people who are saying those hateful words into 
question, not their right to say them but their obligation not 
to say them if they want to live in a civil society.
    So, what administrators need to do is change the nature of 
the discourse, to ask for much more civil discourse. And that 
doesn't mean closing down ideas. It means respecting each other 
and the diversity of opinions that each of us should have.
    Ms. Foxx. Thank you very much.
    Ms. Strossen, in your testimony, you discuss several 
instances where speech may be restricted because of specific 
objectively demonstrable serious harm that it directly causes. 
Can you expand on those instances and discuss how colleges and 
universities can appropriately draw the line?
    And again, I appreciate all of you all coming today.
    Ms. Strossen. Too eager to talk. As one educator to 
another, I'm especially eager to answer that fine question. The 
basic--the most important examples that would apply on campuses 
include what the law calls a genuine threat or a true threat 
and targeted harassment. Now, we have to be very careful 
because we tend to use the word threat or harassment very 
loosely in everyday conversation. And I am very concerned about 
students and even faculty members saying, ``I feel assaulted by 
that speech'' or even ``I feel, you know, that speech is 
committing violence against me.'' No, no, no.
    The test is appropriately narrow. The element of intent, as 
Mr. Lawrence said, is very important. When the speaker means to 
instill a reasonable fear, not a fear that someone subjectively 
feels but a reasonable person in the position of the student 
who is targeted would reasonably feel fear of violence or harm, 
that is a true threat. And it doesn't--the speaker need not 
intend to actually carry out the threatened harm but to instill 
the fear, which itself is intruding into the liberty.
    So--and it's a very fact-specific determination, which is 
why I agree with Mr. Krishnamoorthi that we must not make this 
into a punitive matter because it is a matter that involves 
discretion and judgment. You would look at all the facts and 
circumstances, and certainly one of them, as Mrs. Demings said, 
is the history that is associated with the expression. The 
noose, certainly, would convey a reasonable fear of racist 
violence.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Mr. Jordan. The ranking member is recognized, Mr. 
Krishnamoorthi.
    Mr. Krishnamoorthi. Ms. Strossen, you are free to exercise 
your free-speech rights to mispronounce my name. That is 
perfectly okay. The other day I introduced myself, I said, 
``Hi, my name is Raja Krishnamoorthi,'' and someone said, 
``Roger Christian Murphy, very nice to meet you,'' so I am used 
to it.
    You know, I think that the three principles that I am--
look, I think there is room for us to come to agreement on a 
few principles that I am hearing echoed in your excellent 
testimonies across the board. First, I personally believe that 
Mr. Lawrence is--Dr. Lawrence is absolutely right, that college 
administrators should have maximum discretion to, you know, 
essentially enforce these free-speech rights both for those who 
are peacefully protesting and those who would show up in, as 
Mr. Shapiro said, you know, practice their viewpoints or 
espouse their viewpoints.
    The second principle kind of goes along the lines of what 
you are saying, Ms. Strossen, which is you have to have some 
principle that is equally applied to both sides, and that is, 
is it the reasonable-person test. Would a reasonable person 
feel they are about to be attacked, or would a reasonable 
person perceive an intent to attack, et cetera.
    And then the third principle I think is we don't want 
anything to border on violence, any kind of incitement to 
violence. That is why, when Mrs. Demings brought up the case of 
Taylor, who is with us in the audience--I am sorry; I forgot 
your last name, Ms. Taylor.
    Ms. Dumpson. Dumpson.
    Mr. Krishnamoorthi. Dumpson. Thank you for coming. I think 
that that particular episode to me I think as a reasonable 
person--hopefully, most people would agree that is crossing a 
line into a place where, you know, there might be violence on 
its way, and I am very sorry that even happened to you. At the 
same time, I am disturbed when I see videos of people getting 
shouted down and shut down.
    And so my question to the administrator is that people who 
are in the shoes of the college presidents and administrators 
who are trying to enforce these principles, Dr. Lawrence and 
Dr. Zimmerman, I mean, how do you, A, prevent that kind of 
shouting down and just, you know, shutdown of speech, which we 
saw, and on the other hand prevent what Congresswoman Demings 
talked about, which is that hate crime in my view? I mean, what 
are the challenges there from a public policy standpoint? Like 
is there anything that you need in terms of tools to help in 
that particular area?
    Mr. Lawrence. Well, let me start with the last question, is 
there anything else that we need besides the goodwill of the 
House of Representatives? We certainly do not need more 
legislation in this area. I think the question of how do you 
deal with the conflict between, on the one hand, protecting 
students from hate crimes, on the other hand exposing students 
to troublesome ideas, even offensive ideas and teaching them 
how to respond to it. That is the challenge that we meet.
    But you start, I think, by recognizing, as a university 
administrator, that it is--those are not the only two options. 
Either we protect speech and embrace it or we prohibit speech. 
There's this whole middle category that says speech is 
protected, it is encouraged, and university administrators also 
have First Amendment rights and also get to speak.
    So, in many cases, the answer is not to run to the extreme 
of shutting down an event if there is a--even a white 
supremacist on campus. If they are invited by a campus group or 
in a State university if they're entitled to be there by the 
State university rules, then you don't shut it down, but you do 
counter it with comments of your own, and the administration 
has to say, ``We have values in this university, and we 
represent all of our students of all backgrounds, and this is 
what we stand for and these are the high values of this 
university.''
    I know outside the context of the university this sounds 
like thin stuff. Within the university on the campus for those 
of us who spent our lives there, this is not thin stuff. This 
is the real stuff. This is where students and faculty are 
engaged in the life of the school on a daily basis.
    So this is where Justice Brandeis really did have it right. 
The answer is not enforced silence, but it is more speech, and 
more speech is not just an option; it's a moral obligation.
    Mr. Krishnamoorthi. Dr. Zimmerman, can I just add onto 
that? Has something changed in the last 10, 15 years whereby 
the incidents that Congresswoman Demings talked about have been 
on the rise, especially as of late against many different 
minority groups and also what Mr. Shapiro was talking about as 
well? I mean, has something changed that we need to be aware 
of?
    Mr. Zimmerman. What a great question. Let me back up for 
one second and agree with Dr. Lawrence and say one other thing, 
and that is you can't wait until one of these events happens. 
You have to change the culture ----
    Mr. Krishnamoorthi. Right.
    Mr. Zimmerman.--from the beginning.
    Mr. Krishnamoorthi. Right.
    Mr. Zimmerman. You have to--the first day students come to 
campus, before they come to campus ----
    Mr. Krishnamoorthi. Right.
    Mr. Zimmerman.--they have to know they're coming to a place 
where they're going to be trafficking in ideas, and some of 
those ideas, as so many of you have said, might be 
controversial and might make them uncomfortable, but that's 
what makes them educated.
    I guess the deep--the real answer that I see to your 
wonderful question is are we a less civil society in general 
than we used to be? Are we more at odds with one another? Do we 
have a deeper misunderstanding and more distrust when we talk 
with people who disagree with us? Are college campuses the 
epicenter of this or are they a reflection of what's going on 
in society?
    And, you know, I--we're sitting here in House chambers or a 
conference room. The House doesn't interact with the--Members 
don't interact with each other at least publicly very well 
often. We on college campuses, students, faculty model the 
behavior we see. And it's not that you are the problem, but you 
are part of American society. We have all come to this, I 
think. We need collectively to come to a better understanding 
of how to disagree civilly and respectfully.
    And unless we understand what our opponents are saying, 
we're never going to make cogent arguments against them. We 
need to understand our position, and we need to understand 
their position if we're going to make rational decisions.
    Mr. Krishnamoorthi. Thank you.
    Mr. Jordan. Mr. Carolla, we have heard from the other side, 
we have heard from a couple of our witnesses about the intent 
to cause violence. We have heard the term agitator used. We 
have heard that it is appropriate to criticize hate speech. 
When you are on campus, do you engage in hate speech?
    Mr. Carolla. Well, that's a--it's all in the ear of the 
beholder. That's the problem, and everyone's ears are getting 
supersensitive these days. I express ideas and ideas I believe 
in and oftentimes jokes like, Mr. K, did they charge you extra 
for the nameplate? You know, like ----
    Mr. Krishnamoorthi. I have a wraparound--it wraps around --
--
    Mr. Carolla. When you bring a van to the car wash, do they 
charge you more? I just figure with the 128 letters there.
    You know, I try to be a little more philosophical about all 
this stuff, and I was at a Home Depot in Glendale, California, 
two days ago standing in the tool department, and a Taylor 
Swift song came on. And I was initially agitated. I just didn't 
feel like it was good thematically for me to be looking at 
RotoHammer with Taylor Swift talking about how hot she was 
pumping above my head like a halo. But all I did was keep 
shopping, keep walking. I realized some people like this music, 
some people don't like this music. It's the prerogative of 
whoever manages the Home Depot to play Taylor Swift at that 
time. I didn't complain, I didn't throw something at the 
speaker, and I didn't start a fire. I just got my tools, paid, 
and left.
    And I just thought if more people could do that with ideas 
they disagree with or people they disagree with or music they 
disagree with--it's not an endorsement of Taylor Swift; it's I 
have a life to lead. I need a RotoHammer, and I don't 
personally hold the manager of this Home Depot--nothing against 
him if he wants to play--he or she wants to play Taylor Swift.
    And I think if people could just sort of have that in their 
mind--and I'm not saying don't have an opinion and I'm not 
saying don't voice your opinion, but when other people are 
voicing their opinion or singing their song, sometimes it's 
time just to grab your RotoHammer and head for the parking lot.
    Mr. Jordan. And your appearances on campus, has your 
intentions ever been to cause violence on college campuses?
    Mr. Carolla. Oh, sorry for skirting the question.
    Mr. Jordan. No, no, no, it is a second question. It is a 
second question. You did fine on the first.
    Mr. Carolla. Literally talking about Taylor Swift and 
skirting, mini-skirting the question. Of course not, never, no. 
And I don't know whose--who does have those ideas. I personally 
want to exchange ideas. I basically want to just take my ideas 
and put it into your head, but I don't want to put my fist or 
foot in your head.
    Mr. Jordan. Yes. Mr. Lawrence, do you think that when Mr. 
Shapiro is on campus that he has any intentions to cause 
violence or promote violence? Do you think he is an agitator or 
do you think he engages in hate speech?
    Mr. Lawrence. No, I have no reason to believe he's there to 
create violence, and, in fact, I would say that the wise 
university president does not get in the business on a daily 
basis of calling First Amendment balls and strikes. Generally 
speaking, you want to let the game play on. You want ideas to 
be exchanged. If Mr. Carolla wants to come to campus and do his 
seething critique of Taylor Swift, I would say have had it.
    But those aren't the hard cases that we're talking about. 
Where you do weigh in are precisely cases ----
    Mr. Jordan. What you mean they are not the hard cases? Mr. 
Shapiro has been shouted down uninvited, violence at the thing, 
so what do you mean it is not the hard case? If you think his 
speech is appropriate, he is engaging in the kind of ideas, 
robust debate that we want on college campuses, then why is the 
reaction the way it is then?
    Mr. Lawrence. Well, there shouldn't be that reaction, and 
what I mean by not being a hard case is that it should not be a 
hard case for a university administration to protect his right 
to speak. I think there's no problem with that.
    Mr. Jordan. That seems to be.
    Mr. Lawrence. But what I mean by the hard case is that when 
you do see a dramatic increase in white supremacist incidents 
on campuses, university administrators have to pay attention, 
and particularly when there are people who come from the 
outside ----
    Mr. Jordan. Right.
    Mr. Lawrence.--and the university president has a hard time 
keeping control of her or his campus. That--but that's a 
different situation from Mr. Carolla and Mr. Shapiro.
    Mr. Jordan. Mr. Shapiro, are you an agitator?
    Mr. Shapiro. Not as far as I'm aware. So this--I think that 
some of what's been said does miniskirt the debate.
    You know, Mr. Krishnamoorthi--I got it right--when you're 
talking about the Wisconsin law, I believe that law was brought 
up in direct counter to what happened, and it was people who 
talked about it on the Floor of the legislature--in direct 
counter to what happened when I spoke at University of 
Wisconsin at Madison where you had a bunch of protesters who 
sit in front of the stage and obstructed the stage and then 
refused to leave. And when I asked the police would they remove 
the protesters at a certain--they'd been going for 15 minutes.
    I--by the way, personally, two things just to preface. I 
have no problem whatsoever with people protesting my speeches. 
I do have a problem with people who won't actually let me 
speak.
    And, number two, as far as all the talk about white 
supremacy, I can speak from experience, Mr. Lawrence, your 
organization named me the number-one target of anti-Semitism 
online last year, so I have a trophy at my house that says 
number-one hated Jew in America, so I'm totally familiar with 
the level of vitriol that's become common in our politics.
    But one of the things that's a problem and I think we have 
to be careful about is when we say leave it to the 
administrators and then the administrators do what they did at 
UW, which is the police--I said to the police, ``Will you 
remove these protesters,'' and the police said, ``We have been 
told by the administration that if we remove the protesters, we 
are to shut down the event entirely, so we can't remove the 
protesters.'' We literally had to wait until they just got 
tired and walked out basically.
    When that's response of the administration, shouldn't there 
be some sort of repercussion for that? Because what I'm seeing 
is a heckler's veto that's taking place on campus. What I'm 
seeing is people who are not engaging in free speech designed 
to enrich the debate but in order to shut down the debate, and 
there have to be some sort of ramifications for people who are 
actually committing trespass.
    I mean, these are--this is not a question of free--everyone 
is trying to focus in on this term hate crime and hate speech. 
They--but the important part of those phrases is not the first 
word. It's speech versus crime. So if there is a crime that's 
being committed, we're all in agreement. If somebody commits a 
crime and they're speaking of an imminent threat to somebody, 
of course that's a crime, but that has very little to do with 
the hate and a lot more to do with the crime as to whether 
that's prosecuted because hate speech is not prosecutable, nor 
should it be policed by the campus.
    So, the fact is that what we are seeing is a conflation 
between speech and active attempts to obstruct in order to 
promote the obstruction by some administrators on a few college 
campuses.
    Mr. Carolla. Can I add to that?
    Mr. Jordan. Sure can.
    Mr. Carolla. I think that the bigger problem and what's 
sort of insidious here is I believe that the administration 
does not agree with Ben Shapiro and Ben Shapiro's thoughts and 
what Ben Shapiro is going to say, so it becomes a tacit 
agreement. They disagree--they're basically Steeler fans, and 
he's a Baltimore Ravens fan, and he's going to come up and make 
a speech, and all the Steeler fans say, well, he should be 
allowed to, but we're not a fan, and so quietly they go along 
with it. And I think that's a problem. I think that's a big 
problem.
    We--everyone agrees on free speech, everyone agrees that 
the college campus should be a petri dish of free speech or 
melting pot or whatever it is, a sea sponge of free speech, but 
when the administration doesn't agree with what Ben Shapiro has 
to say, they don't defend his right to say it as vigorously as 
they would if someone came on who they agree with. It's quiet 
and no one ever talks about it, but I believe that's what's 
going on.
    Mr. Jordan. They tell him like they did last week that, oh, 
there is no venue that will accommodate him in September. Wow, 
right? You can't find the place on campus to have him come and 
address this ----
    Mr. Shapiro. I mean, I think that--if I may for a second, I 
think that that's one of the dangers here is that what we're 
seeing in many cases is use of what would normally be time, 
place, and manner restrictions in order to restrict the actual 
type of speech.
    Ms. Strossen. As a pretext.
    Mr. Shapiro. Yes.
    Ms. Strossen. If I might say, responding to points that Mr. 
Krishnamoorthi made and also ----
    Mr. Jordan. I have got to get to ----
    Ms. Strossen.--Chairman Jordan, that this really is not 
such a new phenomenon. Back in the '60s and '70s, there was 
actually epic violence on campuses, massive shutdowns, outside 
agitators, students alike, faculty members and administrators 
imprisoned within their offices, and that gave rise to that 
fabulous report that Chairman Jordan referred to, the Woodward 
Report, which I think is responsive to a number of questions 
that have been raised. What should campus administrators do? 
Because it really, in concrete terms, spells out the 
distinctions between speech that should be protected, including 
vehement protest, and where it crosses the line into coercion 
and intimidation, where it is important for the university to 
enforce its own rules. But that's as distinct from ----
    Mr. Jordan. Well said.
    Ms. Strossen.--government getting into the fray.
    Mr. Jordan. Well said.
    The gentlelady from Florida is recognized, and we will be 
relaxed in time restraints a little bit there, too.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And again, thank you to all of our witnesses for being here 
today and engaging in this very important discussion.
    Mr. Lawrence, in your written testimony you talk about 
white supremacists are engaged in unprecedented outreach on 
American colleges and campuses. What do you believe accounts 
for the rise in outreach? And what do you believe white 
supremacist groups are hoping to achieve by the increase in 
targeting colleges and universities?
    Mr. Lawrence. I think what they are hoping to accomplish is 
to influence the next generation of leaders in society, and so 
they come to campus with that in mind. I think they also are 
hoping to get a high level of visibility, which they do. 
Campuses get a high level of attention in the media and the 
press, in government, and mostly for good reasons, but I think 
that raises that as well.
    And I think to a certain extent we are living in a highly 
hyperpolarized environment right now, and there is a violence 
to the vocabulary that comes very quickly, and there is a 
racialized version of much of this vocabulary that comes very 
quickly.
    But let me hasten to add that even when those groups come 
to campus, I still think the answer is more speech, not to 
restrict. But I do think this is where the job of the 
administrator becomes very complicated but terribly important 
to be a voice of clarity to say on this campus we believe that 
all are entitled to come here and have a satisfying learning 
experience, to be challenged, to be challenged intellectually, 
to be troubled with ideas, but not to be threatened and not to 
be stigmatized because of who they are or what they are.
    Mrs. Demings. You know, as I indicated in my opening 
statement, I have been directly involved in numerous--provided 
security for numerous protests as persons who I agreed with and 
groups that I didn't exercise their First Amendment rights, so 
I take this conversation very, very seriously.
    You talked earlier about kind of the complicated and 
sometimes difficult job of the college administrator, who is 
trying to balance protecting the right to free speech but also 
thinking about the welfare and safety and well-being of their 
students, which can be a difficult line. Could you--or even Dr. 
Zimmerman. I would like to hear from both of you. Kind of talk 
more about--even though we said it is a tough--it is difficult, 
could you kind of talk more about the role of the college 
administrator in balancing the right to free speech and the 
welfare of the students on campus?
    Mr. Lawrence. Well, let me start with something very 
important that Dr. Zimmerman said. These discussions do not 
best start once an event has already happened on campus. It 
starts at first-year orientation discussions. It starts in 
dinners in the president's home. It starts in discussions in 
the office talking about what do we stand for? What does a 
civil learning climate mean? What does it mean to challenge 
each other? It comes with how we treat each other. I think he's 
also right that there are a precious few good role models for 
civil disagreement in our society right now, so we have to 
create those on our university campuses.
    When an event does happen, I think there also are very 
significant rules of engagement that have to be enforced, so, 
for example, if Mr. Shapiro wanted to come to my campus, he 
obviously would be free to come, and I would make sure that 
there were no protesters who kept him from coming, but I would 
require--and I'm sure he'd be happy with this requirement--that 
he'd have to take questions and answers; he couldn't just give 
a speech and leave it. I have no reason to think he wouldn't 
agree with that.
    Mr. Shapiro. In fact, I actually--in all my speeches I say 
if you disagree with me, you go to the front of the line for 
Q&A. That's always how it works.
    Mr. Lawrence. When I got pushback particularly from some of 
my trustees about certain speakers they disagreed with 
vehemently, ``Why are they on campus?'', my response was 
always, ``Trust my kids.'' I'm going to make sure that these 
speakers have to answer questions, and they're going to stay 
until the questions are done. Trust my students to ask hard 
questions. That's where the training how to think actually 
happens, so you create those environments as well.
    But, look, let's be clear as well. When the situation gets 
out of control usually because you've got people from the 
outside--not only, sometimes it's inside--but usually, when 
you've got people from the outside, then you got the same 
questions on campuses that law enforcement, such as your 
experience, are more adept at dealing with. And these will 
continue to be challenges for our universities.
    Mrs. Demings. In your written testimony, you also talked 
about the just unbelievable number of incidents of racist-
related stickers, flyers on campuses. Could you talk a little 
bit about the impacts that you have seen on certain groups as 
it pertains to those flyers and stickers?
    Mr. Lawrence. Look, you've got to go all the way back to 
first principles. Universities are not punitive institutions; 
they are educative institutions. We exist for a purpose; it is 
to educate our students. When there is a pervasive expression 
of racism on campus, that disables the learning of certain 
students. Again, that doesn't necessarily mean you would 
repress some of that expression, but you have to respond to 
that not just because you think that's a nice thing to do. You 
have a professional obligation as an educator to see to the 
learning ability of the students on your campus. So, the 
incidents that you're referring to have a deeply negative 
impact on the ability of students to learn, which at the end of 
the day is the mission of the institution.
    Mrs. Demings. Okay. Thank you. I am out of time.
    Thank you so much, Mr. Chairman. I yield back.
    Mr. Jordan. Thank you.
    The chair notes the presence of Congressman Hice and 
Professor Raskin, and without objection, they will be welcome 
to participate fully in today's hearing.
    I now recognize the Chairman, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    I just want to bring up something from your written 
testimony that frankly, Mr. Lawrence, I find troubling. You 
cite an instance at Central Michigan University where there was 
a Valentine's Day card that went out that was extremely 
offensive to Jews, and you do point out that the creator--and 
it was attributed to a Republican student group. And in your 
written testimony you went out that the creator of the 
Valentine turned out to not be a student, but you never 
mentioned in here that it was not the Republican group, that an 
inquiry into this by Central Michigan University found--led by 
Katherine Lasher said that they determined that leaders of the 
student organization, the college Republicans at CMU were 
unaware of the card and that their director said the members of 
the student organization were shocked and remorseful. Why 
didn't you make that clear?
    Mr. Lawrence. Congressman, I apologize if it was not clear 
in the written testimony as you see it. I did say in the 
testimony that it was determined not to be from a student 
group. The ----
    Mr. Palmer. But you didn't make clear that it wasn't the 
Republican--not only was not a student, it wasn't the 
Republicans.
    I guess I'm a little sensitive about that, Mr. Chairman. I 
like to enter this into the record if I may.
    Mr. Jordan. Without objection.
    Mr. Palmer. Because I realize that some speech does incite 
inappropriate behavior, even violence, and I know that 
firsthand because I was one of the Republican baseball players 
that was on the field. I was 20 steps from the guy when he 
started shooting, and it was clear that he was incited by 
certain speech.
    But I would like to point out that, as traumatic as that 
experience was, I have not heard a single demand from any one 
of those who were present who were injured or wounded for 
restriction of anyone's right to speak their views on any 
issue.
    And I just think--you know, I was at the University of 
Alabama in the mid-1970s. Nineteen sixty-five was the first 
time an African-American was allowed to enroll in the 
University. It was a dark time in our history, there is no 
question about it. But in 1976 we elected the first African-
American president of the Student Government Association, the 
year before that, the executive vice president of the Student 
Government Association. And there were people who disagreed and 
protested, but we didn't have this inability to communicate 
that we have right now on the university campuses.
    Mr. Lawrence. Mr. Chairman, I would agree that it is 
critically important that on campuses we not get in the 
business of name-calling and certainly not prohibiting others 
from speaking. And, in fact, one of the reasons that I think it 
is very important for universities not to rush to judgment and 
not to look at these as cases to punish but as cases to educate 
is that the goal at the end of the day is to teach students how 
to challenge each other intellectually but not physically ----
    Mr. Palmer. But you have a ----
    Mr. Lawrence.--and not with ----
    Mr. Palmer. You have a responsibility, though, to make sure 
that both sides have the opportunity to engage. This idea that 
denying students the opportunity to hear views or ideas that 
are contrary to what they believe, these safe spaces, I think 
are dangerous. You are not protecting students. You are denying 
them the ability to engage in debate, to defend their views or 
oppose other views because when they leave college, I promise 
you, they are going to run into the views that are opposite to 
their own.
    Mr. Lawrence. You and I are in complete agreement on that. 
It is the obligation of the university to expose students to 
views they disagree with. You and I are in complete agreement 
on that point.
    Mr. Palmer. I ask Professor Strossen, while I find the 
numerous instances of speakers being disinvited or shouted down 
problematic, I think the most troubling aspect of the anti-free 
speech movement is the surprising amount of traction it has 
gained with the younger generation. There is a Pew Research 
Center study that showed that 40 percent of millennials believe 
that the government should be able to prevent people from 
publicly making statements that are offensive to minority 
groups. Does your experience as a professor confirm that 
students are likely to support restrictions on speech?
    Ms. Strossen. I am not going to rely on anecdotes because I 
have to say, by definition, when I'm invited to speak on 
campus, I'm often perceived as a controversial speaker for 
defending freedom for everybody from A-to-Z. So ----
    Mr. Palmer. Now, how does it impact you in the classroom? 
I'm not talking about ----
    Ms. Strossen. Oh, in the class--no, in the classroom, you 
can't teach a law class without--well without forcing students 
to do well to be able--and here my students can quote this--
articulate and defend all plausible perspectives on every 
issue. You're going to fail my class if you just adhere to the 
civil libertarian line or any other line. You have to be able 
to answer back.
    And interestingly enough, there has been some suggestion 
that these problems do not exist at law schools. The new dean 
of the Yale Law School just wrote a very interesting essay in 
TIME magazine in which he said isn't it striking that we don't 
have these problems at law school? It may well be because we so 
emphasize critical thinking and forcing students to advocate 
against their own deeply held beliefs, understanding, first of 
all, that may open their minds and change their perspectives. 
That's not the worst thing to happen in life. And secondly, 
even if it doesn't, it enhances their ability to effectively 
advocate their own positions. So, that could be an educational 
model for undergraduates and, for that matter, high schools and 
below as well.
    Mr. Palmer. I am encouraged to know that you are promoting 
critical thinking skills.
    One last thing, Mr. Chairman, I hear you tapping there; I 
heard that.
    Mr. Shapiro, proponents of curtailed speech often argue 
that certain types of speech amount to violence, noting that 
certain listeners are emotionally harmed when listening to 
ideas with which they disagree. There was an article in the 
L.A. Times that made this argument, going so far as to call on 
courts and legislatures ``to allow the restriction of hate 
speech, as do all other economically advanced democracies in 
the world.'' Is there any limiting principle at play where 
forbidden speech is anything that a particular person or group 
of people find offensive?
    Mr. Shapiro. No, I haven't seen any limiting principle at 
play at all on college campuses, which is the problem. You'll 
have people like Jason Riley from the Wall Street Journal treat 
it exactly the same way as Ann Coulter and Milo Yiannopoulos, 
and they're poles apart in terms of how they express themselves 
and many of the views that they hold.
    So, this idea that there is some sort of bright line--this 
is why I hate even--even the term hate speech is really 
difficult because it's--it just suggests that if I don't like 
what you're saying or if I impute to you an intent that you may 
not have, then, now you're hateful and you should be banned. It 
seems to me that it would be a more effective use of 
terminology would say speech I find insulting or speech I find 
offensive, but the idea of hate speech itself--there are 
certain types of speech I think we can all agree are 
objectively hateful, but I don't think that there is any 
limiting principle at play from a lot of administrators because 
I think that they use that club of hate speech in order to 
cudgel people with whom they disagree. They just say, okay, I 
don't like what you're saying now, and that's hate speech.
    And microaggression culture contributes to this. I mean, 
literally on campuses students will be told that if you say to 
another student, ``Where are you from?'', that this is some 
sort of microaggression, that this is a minor, minor form of 
hate speech if you say, ``Where are you from?'', because you're 
implying they're not from here. Well, I mean, of course you're 
not from here. I mean, I assume you weren't born on this spot, 
but it doesn't matter.
    The idea that you're going to broaden out terminology in 
order to prohibit groups that you don't like or ideas that you 
don't like, I would much prefer that if we're going to be--if 
we're going to move the ratchet in any one direction, let's 
move the ratchet in favor of more speech.
    And I agree of course with Mr. Lawrence that it's perfectly 
appropriate if an administrator wants to say that I personally 
disagree or the university doesn't agree with the views that 
are being espoused by a particular speaker, that's perfectly 
appropriate, but, you know, sometimes there are gray areas in 
terms of what the university is doing.
    When Mr. Lawrence was at Brandeis University, Ayaan Hirsi 
Ali was uninvited from the university because of blowback from 
some of the students. I mean, is that a case of her free-speech 
rights being violated? It's a private university, but if it 
were a public university, would that be a case of her free-
speech rights being violated because administrators decided not 
to stand up for those because students were upset?
    I mean, this is why I think that the notion that there is 
some sort of grand intelligentsia running the universities who 
are capable of discriminating between hate speech and normal 
speech and could be sitting atop a hill somewhere under a palm 
tree like a qadi dispensing justice on a case-by-case basis I 
think is nonsense, and I don't think that they have any 
rational standards they apply.
    Mr. Palmer. I will just conclude with this, Mr. Chairman, 
that I think this hearing is very important. I think the main 
thing that students ought to get and all of us ought to get is 
to deny ourselves access to other people's views is to deny 
ourselves furthering our own education. This is how you learn.
    And I would like to compliment Mr. Carolla on his metaphors 
football and hardware. Thank you very much. I yield back.
    Mr. Jordan. I thank the gentleman.
    Mr. Carolla. Thank you.
    Mr. Jordan. When Mr. Shapiro was giving his example about 
asking the question and it being perceived as a microaggression 
asking the question of where are you from, I noticed the 
students in the audience all nodding their heads, and so in our 
subsequent hearings we are going to look to get some students 
here who can give us some firsthand knowledge of what it is 
like from their perspective on these particular campuses.
    And with that, I recognize the gentlelady from Illinois for 
her questioning.
    Ms. Kelly. Thank you, Mr. Chair.
    I find this conversation very interesting. I used to work 
on a college campus. I was a director of Minority Student 
Services for Bradley University, and I am now on the Board of 
Trustees of Bradley. That is my alma mater.
    And something you said, Mr. Zimmerman, we did start--you 
know, we had student orientation, and as part of the 
orientation, the students went through diversity training and 
diversity orientation. As freshmen, they had to go through a 
class for half of the semester.
    Mr. Lawrence, Anti-Defamation League came to the campus. 
That is where I cut my teeth. I am a diversity trainer, and we 
did a campus of difference.
    And one thing I wanted to say also, I know on the outside 
it may look like we don't get along, but I just hosted 
something I called ``Breaking Bread,'' and there were 75 of us, 
Democrats and Republicans, that ate together, and not that 
probably--Mr. Meadows, a head of the Freedom Caucus, and I 
probably never vote alike, but we are very close. You can ask 
him. And Mr. Palmer and I, I bring him popcorn from Illinois, 
so we do get along better than people think. Maybe we need to 
show it a little bit better.
    Mr. Palmer. And I brought you Valentine chocolate.
    Ms. Kelly. That is right. He brought me Valentines 
chocolate. But I think we do get along better than people 
think. We may not agree on how to get to a goal, but there are 
a lot of similar goals also.
    But Mr. Palmer said--and I deeply understand how he is 
sensitive because of what he experienced, but I also think 
about Taylor and the impact on her. And even though I agree 
with free speech and all of that, but we do need to think about 
the impact and the long-lasting impact that it does have on 
people. And I don't want to speak for her, but like maybe her 
trust or, you know, when she meets someone new or how the 
campus is and those kind of things, I think that we really need 
to make sure that we give the students support. And I agree 
with being open-minded to different ideas and things like that, 
but it does have an impact on people.
    When I went to college a long, long time ago, it was so 
segregated. I grew up in New York City. I went to college at 
Bradley University, and I just was not used to that. And I 
still remember the impact that it had on me and people's 
attitudes and things like that, but maybe that led me to be 
passionate about diversity and becoming a diversity trainer.
    But what do you think about that, the impact that it has on 
people? Even like Mr. Palmer said--and he is a full-grown 
adult, a Congressman, and the impact of what he went through 
has on him--but how can we support students?
    Mr. Lawrence. Well, I think the more we talk with one 
another and the more we listen to one another, the easier it is 
to understand one another. When we look at others as other, we 
can demonize them. We can ignore their ideas and know that 
their ideas are wrong. When we understand who these people are 
and what they believe, it's so much easier to share what we 
have in common instead of looking for our differences.
    So, the fact that you had 75 members together is absolutely 
wonderful, but I think you're right; that needs to be 
demonstrated more openly because that's not the image that's 
seen. And we, as members of the Academy, as I've said, we as 
citizens, we as human beings look for role models, and we model 
what we see, whether we mean to or not. And when we see from 
cable news segregation of ideas, not segregation in terms of 
race but--well, some of that as well but segregation in terms 
of ideas, when we see that so obvious, we internalize that and 
say that must be the way American society should work.
    We need to work together. We need to understand each other, 
and we need to be able to disagree. There's nothing wrong with 
the disagreeing, especially with the ideas but not with the 
people.
    Ms. Kelly. But I also think in disagreeing there has to be 
a certain level of respect.
    Mr. Lawrence. Absolutely.
    Ms. Kelly. That is the other part, too. And again, I go 
back to what Taylor went through. That is beyond the pale, and 
I do think things should be done about that.
    Mr. Lawrence. I agree with you completely.
    Ms. Strossen. Could I possibly say something? First of all, 
Congressman Kelly, I've spoken at Bradley and I have wonderful 
memories. There weren't protests. But studies have been done by 
social psychologists and legal theorists also have supported 
the notion that a major harm from even threatening speech that 
could be punished, much less constitutionally protected hate 
speech, is not the initial speech itself but if there's lack of 
objection to it from the surrounding community, if there's lack 
of support for the person who's the target of the hate speech.
    Conversely, when you have university presidents, student 
body leaders, other members of the campus community rallying to 
support the students who are the target of that speech, that 
ends up being not such a--it can become a resilient, empowering 
kind of experience.
    Ms. Kelly. Thank you.
    Mr. Jordan. I thank the gentlelady.
    The gentleman from Kentucky, Mr. Massie, is recognized.
    Mr. Massie. I remember my very first day on campus. I grew 
up in a rural town in Kentucky, 1,500 people, and I went to a 
school in Cambridge, Massachusetts, had never even visited the 
campus. I crossed the crosswalk. We didn't have any crosswalks 
where I grew up--and a car honked at me. I thought what are the 
odds? I have been here an hour and already met somebody I know. 
I turned around and waved at the car. I think they were waving 
back with one finger, but what that showed me is these people 
may have different ideas or a different upbringing than I had.
    Ms. Strossen articulated a threshold for reasonable 
expectation, whether something is hate speech or whether it is 
protected or not. Mr. Lawrence, she said it was--maybe the 
threshold should be reasonable expectation to--that it would 
instill fear or violence--a fear of violence or harm. Is that--
would you like to in less than 30 seconds if you could sort of 
articulate the standard of what might be protected and what 
might not?
    Mr. Lawrence. Yes, I think that Professor Strossen and I 
are in roughly the same place on this. I would just focus more, 
as we often do in the criminal law, on the intent of the actor, 
so was it behavior that was intended to threaten or intimidate, 
not to confound, not to trouble, not to raise new opinions ----
    Mr. Massie. Right.
    Mr. Lawrence.--but to threaten or to intimidate.
    Mr. Massie. Okay. I have got a document here you may 
recognize. It is the Constitution and the Declaration of 
Independence. If I brandish this, Mr. Lawrence, in your 
presence, are you intimidated? Does it strike fear in your 
heart? Do you think that harm may come to you very soon?
    Mr. Lawrence. I think it is actually much safer than 
crossing the street in Cambridge, Massachusetts.
    Mr. Massie. I would agree, but the administrators at the 
Kellogg Community College don't. They arrested students for 
handing out a Constitution. Can you imagine that? That is the 
height of irony. How far has this ridiculousness gone if 
students are arrested for handing out Constitutions? This is 
the document that contains the First Amendment, the protection 
in there. I think maybe we have gone too far if this is now 
recognized as something that passes that threshold.
    Mr. Carolla, I know King George may have found this to be 
insightful, but do you find ----
    Mr. Carolla. Is he a basketball player? I don't keep up, 
you know, on the kings. I was just having a thought. No, I'm 
sorry. Continue your ----
    Mr. Massie. No, I just want to know, is this a threatening 
document? Does this cross the threshold?
    Mr. Carolla. Not unless there's a knife hidden inside of it 
----
    Mr. Massie. Right.
    Mr. Carolla.--no. But as I was hearing everyone speak, I 
never went to college. There's something I do--I would like to 
touch on very quickly, which is going through diversity 
training, going to college, we're all sitting here, first off, 
under the assumption that 100 percent of kids go to college. I 
didn't know anyone who went to college, so I had to figure out 
a way to be a decent human being, not to be racist, not to be 
filled with hate, to be tolerant minus college. I think that 
starts at home.
    So if we--if you get to 18 or 19, I believe the cement on 
the sidewalk of your brain has already dried, and good luck 
carving your initials into it with diversity training. If 
you're a bad kid and we get hold of you in college, you're 
probably just going to be a bad adult. You need to learn to be 
a good human being from zero to college instead of us all 
converting you once you get to college, and especially since 
more than half the people don't end up in college.
    So, we're sitting here with a grand plan of how to coach 
everyone up once they get to college. What if they never get to 
college? What about their parents and what kind of job are they 
doing coaching the kids up so that they need no coaching, 
whether they go to college or not?
    Mr. Massie. Mr. Shapiro, I'm going to assume you don't find 
this to be a threatening or harmful document.
    Mr. Shapiro. I've brandished it at a few people myself, 
yes.
    Mr. Massie. Look, the college's defense, when they arrested 
these students--by the way, they spent overnight in jail, seven 
hours in jail for handing out Constitutions. You said something 
earlier that struck me, that time, place, and manner 
regulations are being used to restrict free speech because that 
is what the college said to these students who belonged to 
Young Americans for Liberty. They said if you just filled out 
the paperwork, if you had stood 100 feet over there instead of 
where you are standing, and if you had done it at this time, we 
would have allowed you to hand out our nation's founding 
document. Can you speak to how time, manner, and place 
restrictions are being abused?
    Mr. Shapiro. So, most obviously, UC Berkeley did that with 
Ann Coulter where they kept moving around her room and they 
kept saying they didn't have rooms available. They said the 
same thing to me a week ago. There was some public outcry, and 
now they're offering some rooms, which, you know, I hope that 
that event goes forward. It's not rare. They do this a lot. 
It's--a private university did it. It was DePaul University. I 
was threatened with arrest if I set foot on campus. I actually 
showed up there, and a security guard told me if--if I'm--I 
asked him, if I move six inches forward, are you going to 
arrest me? And he said yes, and he had the Sheriff of Cook 
County behind him.
    So, this is--you know, it's become a cover for ideological 
discrimination because if Ta-Nehisi Coates wants to speak on 
these campuses, there's not going to be any problem. The 
administrators will make certain that time, place, and manner 
restrictions don't get in the way.
    And this is why I say saying that the discretion of 
administrators is wonderful is all well and good except that 
they very often are attempting to achieve a particular 
political end by using means that are normally legitimate, and 
that's definitely a dangerous thing.
    If I--if you don't mind, I have a quick note on something 
that I think it was Mr. Lawrence was saying earlier about the 
damage that's done to students by various things that happen on 
campus by threats of violence and this sort of thing. And 
obviously, everyone I think agrees that what happened to Taylor 
is unacceptable.
    But one of the things that I think should also be pointed 
out is we have a lot of other students in the crowd and 
administrators who spend an enormous amount of time pushing 
stuff like white privilege means that you must accept that you 
are subordinate in terms of your view because of identity. This 
also has some lasting damage with regard to First Amendment 
exercise and with regard to how people perceive the freedom of 
the country.
    And I understand that this is a universally held belief 
among university educators that we have to accept the guilt of 
particular races or particular sexual orientations for 
discrimination that's happened in the past, but when you teach 
a bunch of 18 and 19-year-old people this, you shouldn't be 
surprised when, number one, they go into hiding with their 
viewpoint or, number two, they become frustrated.
    It's an absurdity to suggest that you can tell people that 
their viewpoints are out of line because of their identity at 
the same time you're telling other people that their viewpoints 
are completely in line because of their identity, and any 
assault on their senses must be protected--or prevented at any 
cost.
    Mr. Massie. I would just like to point out in closing that 
the group Young Americans for Liberty that is handing out 
Constitutions on campuses all across the country has changed 
free speech restrictions on 25 campuses just by handing out 
this document, not by setting fires because they didn't like 
the speaker or throwing rocks through windows but by handing 
out this Constitution. And I am inspired that there are young 
people who are inspired by this document, and it should never 
be illegal to hand out this document.
    Mr. Jordan. Well said, Mr. Massie.
    Real quick, Ms. Strossen, is Mr. Shapiro right? Are most of 
the anti-speech activities going on on campuses targeted 
towards conservatives and libertarians?
    Ms. Strossen. The--certainly, the well-publicized ones have 
been. And I don't--I can't speak for campuses across the 
country, but I go back to an opening point that I made, which 
was best summarized in the title of the book by Nat Hentoff 
called ----
    Mr. Jordan. But I just wanted an answer.
    Ms. Strossen. I'm sorry.
    Mr. Jordan. I can't--we will come back to that, but I just 
wanted to respond to Mr. Shapiro's point.
    Ms. Strossen. Sure.
    Mr. Jordan. I mean, that is my understanding as well, and I 
will be ----
    Ms. Strossen. Those are the well-publicized incidents, and 
it would be consistent with what surveys show about the 
prevailing beliefs on campus, that the majority of students 
have--are on the liberal end of the political spectrum, the 
majority of faculty members are on the liberal end of the 
spectrum ----
    Mr. Jordan. I find that shocking.
    Ms. Strossen.--so they would be more likely to be offended 
----
    Mr. Jordan. I find that shocking.
    Ms. Strossen.--by conservative speakers ----
    Mr. Jordan. Professor Raskin, you are smiling. You find 
that shocking, too, don't you?
    The gentlelady from the District of Columbia is recognized 
for her five minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I am pleased that the entire panel appears to believe that 
exposure to speech that hurts is part and parcel of living in a 
democratic free-speech society.
    It pains me, I have to say, when I hear of African-American 
students in particular claiming about hurt feelings when it 
comes to speech. I simply say as a black woman and ask them to 
remember that Frederick Douglass--and I am pleased that this 
committee has just passed a resolution--sorry, a bill that will 
allow Douglass' bicentennial to be commemorated--that at the 
same time that African Americans were enslaved, Frederick 
Douglass was able in even that society to denounce slavery all 
over the United States.
    Mr. Shapiro, I daresay I have had the opportunity to defend 
people who were even more controversial than you are. I was 
assistant legal director of the American Civil Liberties Union. 
It was a small office, and I had a memorable opportunity to 
argue before the Supreme Court a so-called prior restraint 
case. That was a case where, as a matter of fact, it was in 
Princess Anne County at that time--I lived in New York--
Princess Anne County Maryland, and a proto-Nazi racist party 
came in that county and gave a speech of the kind you might 
expect that denounced blacks and Jews and anybody else they 
could think of.
    Well, the State's attorney went into court and got an 
injunction against their ability to speak the next day. And 
that case was appealed all the way--I argued the case at the 
Supreme Court not as it was appealed up. Supreme Court ruled 
unanimously that those vile words could be spoken without being 
censored ahead of time.
    In essence, this kind of activity in the country and on the 
campus is intended to have some kind of chilling effect to keep 
people from wanting to speak at all.
    The Republican-led assembly in Wisconsin has taken a stab 
at what to do about this because I don't think we want to 
encourage hateful speech. And I appreciate what Professor 
Zimmerman and Mr. Lawrence have said about the anecdotes to 
hate speech. But if you leave this to legislatures, they have 
only the law at their disposal.
    Now, in Wisconsin, the State Assembly there passed a bill 
and recently passed a bill that would require disciplinary 
action, and that action could be suspension or expulsion. This 
is how they framed what would get you suspension or expulsion. 
``Any student who engages in indecent, profane, boisterous, 
obscene, unreasonably loud, or other disorderly conduct that 
interferes with the free speech--free expression of others.''
    Every Democrat voted against this. What kind of 
polarization is this? I am glad to see we don't have it in this 
committee. Every Democrat voted against that. Every Republican 
voted for that.
    The State Assembly, by the way, was not shy in making clear 
what their purpose was. It was to suppress the campus protests 
that they had seen over that time.
    Ms. Strossen, I read your written testimony. You give a 
wonderful expository about free speech, and you mention vague, 
unclear guidelines as having a potential chilling effect when 
people read those guidelines. And I guess when you talk about 
clear, objective guidelines, I just read to you the words of 
the Wisconsin Legislature, ``engages in indecent, profane, 
boisterous, obscene, unreasonably loud,'' et cetera, speech. 
Would you have concerns about that statute, that Wisconsin 
statute, and what do you think would be the concerns of, for 
example, the Supreme Court of the United States?
    Ms. Strossen. Well, as Justice John Marshall Harland, who 
was a graduate from New York Law School--I have to correct that 
typo--where I teach famously said ``One person's vulgarity is 
another person's lyric. One person's indecent profane speech is 
somebody else's poetic speech. One person's unreasonably loud 
speech is somebody else's clearly audible speech.''
    The reason why we do not allow government to enforce these 
vague standards is that they depend on subjective value 
judgments, which can turn on nothing other than the political 
preferences of the enforcing authorities, which is exactly what 
we're all complaining about. We need to have clear objective 
standards relating to demonstrable serious harm such as 
violence or threats to constrain the discretion so as not to 
punish disfavored ideas.
    Now, Congresswoman Norton, I don't know if you got to the 
appendix to my testimony ----
    Ms. Norton. I did not.
    Ms. Strossen.--but it includes very old but still timely, 
sadly, law review article which quotes a certain Eleanor Holmes 
Norton way back in 1990, who said--and this is exactly on 
point--``It is technically impossible to write an anti-speech 
code that cannot be twisted against speech nobody means to bar. 
It has been tried and tried and tried.'' So you answered your 
own question very eloquently.
    Ms. Norton. Thank you very much.
    Thank you, Mr. Chairman. I think I should end with that.
    Mr. Jordan. And on a high note there, that is great. Yes, 
thank you.
    The gentleman from Virginia is recognized, not that I 
didn't want to recognize you, Dave, but technically, Mr. 
Meadows is up next, but I will go to you and then we will come 
back to Mr. Meadows.
    Mr. Brat. Thank you, Mr. Chairman. And my two colleagues 
are letting me go prior to them because it is my birthday and 
my parents are out in Statuary Hall.
    And so my--I am a professor. I see a lot of young people 
out there. It is great to see you. Raise your hand if you are 
young. Raise your hand if you feel young. All right, good. So 
we have got a lot--I am a professor for 20 years, so I used to 
torture you all in economics 101 classes. So, I see you sitting 
here, so here you go again. We are going to give you a little 
philosophical lecture.
    And the witnesses today were all just phenomenal. Mr. 
Carolla in the last series of questions said we have got to 
learn to be good, and that right there sums it up. And I am 
going to ask the college presidents how we ground our 
philosophical statements. That will be my question, right, so 
they can give a cursory view of Western civ in the 30 seconds I 
leave you at the end.
    But I have a famous painting in my office with Plato 
pointing up, right? What is to good? He thought it was up there 
in the realm of the forms, and Aristotle is pointing down. And 
no one has resolved that question philosophically in 2,400 
years. There is no definition of the good. That is what makes 
it crucially important that we do the liberal arts education 
and allow all views to be heard from 2,400 years of human 
history. And on that note I hope we all agree.
    My colleagues on the other side of the aisle have spoken 
about atrocities that have occurred in Western civ. I totally 
agree with them. That is not what this is about today. But it 
is about teaching these first principles. Everyone is talking 
about shared values today. I am not sure if there are any 
shared values today. If you want to read a good book, read 
Alastair McIntyre. He will start off on the good, right? And 
you probably heard of him. But his book is called Whose 
Justice? Which Rationality? Same question, right? Whose 
justice, which rationality, and what is the good? And we don't 
have answers to that right now. See, your generation better get 
moving.
    The liberal arts I started teaching about 20 years ago, we 
went from liberalism--I am a 19th century liberal, right? They 
call me a right-wing knuckle-dragger in the newspaper, right? 
But I am a class--I believe in Adam Smith and James Madison, 
the author of the Constitution. And liberals, my liberal 
colleagues on the Democratic side of the aisle always used to 
respect my view 20 years ago. That shifted in academia in the 
last 20 years. Now, it is the hard left, and they are following 
a philosophy called deconstruction. They are ripping apart the 
foundations of the country. The Judeo-Christian tradition, the 
rule of law, and free markets are under attack by the left, not 
my Democrat friends I go to church with. That is a distinction.
    And if you ask them to ground their definition of the good 
or name a philosopher that undergirds their thinking, they 
can't do it. So make sure you young people ask your professors 
when they are spouting off, say name a philosopher, and if they 
can't do it, write about it in the student newspaper because it 
is an embarrassment.
    And so I went to Princeton seminary. The seminary 
voluntarily moved itself across the tracks because we don't 
believe in forcing religion on other people. That is the great 
debate, right? So, we have had the Enlightenment Project. We 
tried to ground reality in human reason alone. It worked great 
in the sciences, but in the moral realm it failed, right? 
Jefferson, Immanuel Kant was kind of the end of the 
Enlightenment Project. And the moral vision failed because they 
could not tell you why it is that human beings are worthy of 
dignity in the first place.
    But our shared values that were delivered in the 
Declaration was fairly clear. We have inalienable rights that 
come from our Creator. Wow, there is a shocker. Ask your 
leftists professors if they believe in those shared values, 
those inalienable rights, right, that proceed the existence of 
government, that come from our Creator. And boy, there you have 
it all, right?
    So, that has been rejected by the left. In K-12 education I 
am sad to report the kids are not taught any system of ethics 
for the first 13 years of their education. And then, in college 
they are taught leftism. And so now we are left talking about 
free speech, one particular part of the First Amendment and a 
narrow part, and we are being told by some people, ``Leave it 
to the academic institutions.'' You have got to be kidding me. 
These are the first principles that ground in and surround the 
space that universities inhabit, right, so the rule of law has 
to precede what educational entities do, and that is why we are 
here today talking about the law that will surround the space 
you all act in.
    And so I will just give you another quiz. Here are the 
ethical schools that are taught in higher ed. Raise your hand 
if you are an Aristotelian. No, none of them. All right.
    Raise your hand if you are a follower of utilitarianism, 
Bentham, John Stuart Mill. Oh, really? Good. Good for you. 
Okay. That is the harm principle. Ms. Strossen mentioned that.
    Raise your hand if you are a follower of Immanuel Kant, if 
you are a Kantian. So we have got two people, good.
    So those are the schools of thought you are allowed to 
teach because they are the Enlightenment schools of reason, 
right? Now, no one follows those schools of thought, but in 
higher ed, you are not allowed to teach about the Judeo-
Christian tradition, Judaism, Christianity, Buddhism, 
Confucianism, and religion.
    How many people in the audience and in the real world live 
out those traditions? Just about 7 billion people out of 8 
billion, right? And that is why I think we have got a 
fundamental problem. So there is my lecture.
    Presidents, if you want to weigh in on what has gone wrong 
in higher ed over the past 20 years and how can we fix it.
    Ms. Strossen. Thirty seconds.
    Mr. Brat. Thirty seconds.
    Mr. Zimmerman. I wouldn't dare touch that, but what I am 
willing to touch until you tell me otherwise is two things. 
First, I want to thank you for your passionate defense of the 
liberal arts because the liberal arts--which has nothing to do 
with liberal or conservative; it has to do with its origin--is 
critically important, and the liberal arts are based on an idea 
that all ideas need to be discussed.
    I'd argue with you just a drop in saying that I frankly 
don't believe the majority of professors on college campuses 
have taken the view that you've espoused. Unfortunately, some 
have. From my 40 years in the Academy, I've had any number of 
conversations with parents in which I've said what good faculty 
members want to do--and I believe in the institutions I've been 
a part of. Almost all of our faculty members are good faculty 
members. They want to teach your students how to think. And if 
in the course of that instruction they think something 
different at the end than they did at the beginning, that's 
okay. If they don't think anything different, that's okay, as 
long as they can articulate either of those beliefs.
    Very rarely I believe do faculty go into a classroom and 
say here's what you need to think. You need to learn to think 
like I think. You need to parrot back what I believe. Yes, that 
happens and it happens not very often but too frequently 
because if it happens at all, it's too frequent. But I don't 
think that's the norm.
    Mr. Lawrence. Yes, I would agree with that. It was 
interesting one of your colleagues said a little earlier that 
actually there's very good working relationships across the 
aisle here. We don't see it out in public, and I think that's 
exactly the same phenomenon we're talking about in the 
university. There's a lot of things that happen in the 
classroom and office hours and seminar rooms that don't get a 
lot of play because what--if it bleeds, it leads is the way the 
media treats you and also treats us in academia.
    As the CEO of the Phi Beta Kappa Society, I would be remiss 
if I did not thank you for your deep embracement of the liberal 
arts. Phi Beta Kappa stands for philosophia biou kybernetes, 
which means ``love of learning is the guide of life.'' I 
mention that, Congressman, because it's about the process of 
the learning ----
    Mr. Brat. Yes.
    Mr. Lawrence.--which I think is key, and when we lose track 
of that, then I think we get ourselves in problems. But the 
great legal philosopher Alexander Bickel said the only true 
integrity is the integrity of process, and the process by which 
we learn in our universities, which is really what we're here 
talking about today ----
    Mr. Brat. Yes.
    Mr. Lawrence.--is what--is the glory of our university 
system in this country.
    Mr. Brat. I just want to thank--I want to thank the panel. 
And, Mr. Shapiro, you are a first great philosopher on the 
rise. I can tell. Thank you very much.
    Mr. Jordan. I thank the gentleman.
    Before I recognize Ms. Plaskett, I should point out we have 
been here for a couple of hours. If anyone needs the 
facilities, to use the restroom or anything, just let us know 
and we can take a short recess or if you need anything. You 
have got plenty of water and all that. We would like to go for 
a little while longer, and we will now go to Ms. Plaskett for 
her questioning.
    Ms. Plaskett. Thank you very much, Mr. Chairman, for the 
opportunity to have a discussion on this topic.
    Mr. Zimmerman, I think that what you have stated--Dr. 
Zimmerman, that universities and schools are for teaching 
individuals how to think. That is primary, as you said, and Mr. 
Lawrence.
    And, Mr. Carolla, I couldn't be more than in agreement with 
you about the toughness that is needed by young people. And I 
have to tell you, you don't have to look at any other group 
that is tougher than young black men and women who go to 
universities or--I have gone to universities or predominantly 
white schools. You have got to eventually, if you are going to 
come out of there on top, have a thick skin.
    I went to one of the most elite private boarding schools in 
the early '80s when almost nobody was there that looked like 
me. You know what it's like to be an African-American Caribbean 
woman at a boarding school in Connecticut when you grew up in 
Brooklyn, New York, and being asked to give the black point of 
view in the classroom when you didn't even know you had a point 
of view at 13 years old.
    But I think what we need to discuss here--and my colleague 
Mr. Brat talked about it, about the influence of the extreme 
left, but he didn't talk about the influence of the extreme 
right as well and how that is affecting our young people on 
campuses. What is the alt right as well as the extreme left 
doing to the discourse and the civility on campuses?
    I am very honored to have Ms. Dumpson, Taylor Dumpson here. 
I am a graduate of American University's Law School where one 
of my first-year law professors sits next to me. I am always 
happy to point out that he is more junior than I am now in 
Congress, but he was my professor there. And I understand what 
you go through, and I am grateful that your mother is here with 
you and that you have the support of your family.
    That is important because, you know, the Anti-Defamation 
League has recently reported that in the past six months alone, 
I quote, ``They have seen a spike in anti-Semitic hateful 
incidents on campuses.''
    And I know that we are talking about free speech. Free 
speech is important, but I think that it would be inclusive for 
us to discuss this not just in the context of how it affects 
conservative speech and conservative students but how it 
affects all students. I think that we are doing the American 
public a disservice when we only talk about one side of the 
coin and not the other.
    I fear for our conservative young children who feel that 
they can't say what they want to say in a respectful manner, 
and then the same way I am concerned for those who come on 
campuses who are not respectful in their speech, whether it be 
to Mr. Shapiro, whether it be to Taylor Dumpson having an 
ability to hold office on the campus for which her family has 
supported her to be there. That is a problem, and that is a 
problem that this committee should be concerned with.
    But who is the appropriate individual or the institutions 
to address that? I don't think it is the legislature's job to 
do that. I think it is for us to question the institutions and 
ensure that they do it.
    On May 1, after being elected the university's first 
African-American student body president, we discussed that Ms. 
Dumpson was met with hung nooses around campus and with bananas 
with the message of ``AKA free,'' which references Alpha Kappa 
Alpha, a traditionally African-American sorority that Ms. 
Taylor Dumpson belongs to. And I am Me Phi Me right now myself. 
I am sorry; I never belonged to a sorority. But we appreciate 
the work of your sorority in the African-American community, 
along with the others.
    And not too long after, she was subjected to harassment on 
social media by a known neo-Nazi group. Mr. Lawrence, are you 
familiar with the hate speech incidents that she just 
described?
    Mr. Lawrence. Yes, I am.
    Ms. Plaskett. And is that an example of hate speech that 
crosses the line and should have no place on a college campus?
    Mr. Lawrence. That is correct, Congresswoman. I would say 
that's actually--you know, what I usually mean by hate speech 
or hateful speech is the kind of speech that is in fact 
protected and ought to be criticized by university 
administrators. I would say would happen to Ms. Dumpson crosses 
the line actually over to being a hate crime.
    Ms. Plaskett. And why is that?
    Mr. Lawrence. Because of the clear intent of the actor is 
not to communicate a view but to threaten her, to intimidate 
her, to instill fear in her. When that happens, we're no longer 
in the realm of having an even difficult, provocative 
conversation. We've crossed over the line into threats.
    Ms. Plaskett. So it is as Ms. Strossen discussed, that a 
reasonable person would see that as threatening speech ----
    Mr. Lawrence. That ----
    Ms. Plaskett.--not as one that is merely to express an 
opinion that may be different ----
    Mr. Lawrence. That is certainly how I would understand it.
    Ms. Plaskett. And would you agree with that as well, Ms. 
Strossen?
    Ms. Strossen. I agree with that, and I should say the fact 
that we call it a hate crime or a bias crime means that it is 
subject to increased punishment even beyond a non-hateful or 
discriminatory crime because it causes additional harm not only 
to the immediate target but to the surrounding community as 
well.
    Ms. Plaskett. Now, it is interesting, Mr. Shapiro, you 
talked about white privilege. And just this week I had a 
conversation with Rachel Laser, who has done some work--a 
Jewish-American woman who has done some work on this area, as 
well as having extensive conversations with Dr. Greg Parks of 
Wake Forest University, who has also talked quite a bit about 
critical race theory. And it is my understanding that white 
privilege is not telling individuals that they cannot speak, 
but it is a term for societal privilege that individuals have 
as a benefit of their white skin.
    And I don't think that--and I think universities would be 
remiss to then say that because you are white, you are not 
allowed to say anything that is critical of white people. I 
didn't know that white privilege actually went into that 
sphere. My understanding is it is just--and the issue is is 
that white privilege makes people uncomfortable to talk about 
the societal privilege that they have.
    Mr. Shapiro. Well, to me the--what I say on campuses all 
the time is if you are--want to cite instances of racism that 
we can all find and fight together, that's something that I am 
more than willing to stand next to you and fight because that's 
obviously stuff that we should fight together, but when you 
just say that there is a white privilege out there in the ether 
and that by dint of birth your skin color generates for you an 
advantage, what you're really saying to people is that you--
your view is less valuable because you have not experienced 
what I've experienced. And that is an identity argument that's 
a character argument that's not a rational political argument 
that can actually be taken on in any way. That's--it's more of 
a cudgel and a club than it is an attempt to open a discussion.
    Ms. Plaskett. Well, I think it's a demonstrable evidence 
that through society's demographics that being white has 
societal privileges that being black does not, but I ----
    Mr. Shapiro. Well, we can talk about how that manifests --
--
    Ms. Plaskett.--am very interested ----
    Mr. Shapiro.--because that's ----
    Ms. Plaskett. I am also interested in what you just said 
now is that you would stand next to anyone who has this. So, 
Mr. Shapiro, my question to you is for Ms. Dumpson, the tying 
the noose around the campus and writing messages that target 
African-American young students, would you consider that hate 
speech, and then would you stand next to her and fight for her 
against that?
    Mr. Shapiro. As I say, I would--this is the first I'm 
hearing about it honestly, but it ----
    Ms. Plaskett. Really?
    Mr. Shapiro.--from what--yes. But from hearing about ----
    Ms. Plaskett. Shocking.
    Mr. Shapiro. Maybe because it's local. I'm from L.A. But in 
any case, I'm more than happy, more than happy to stand 
alongside her and fight whatever group was responsible for 
this, not only more than happy. I mean, you're talking about 
the--again, I was the number-one target of anti-Semitic 
harassment from alt right last year ----
    Ms. Plaskett. Thank you.
    Mr. Shapiro.--so I am more than happy to do all that.
    And I think there's one more distinction that has to be 
made. When we talk about cases like Taylor's, they're horrific, 
and the administration is siding with Taylor, okay? The 
administration is doing the right thing by Taylor or trying to 
do the right thing by Taylor, as they should be. And I think 
that we need to make a distinction between cases where the 
administration is actively participating in the suppression of 
speech and cases in which the administration is trying to do 
the right thing as a--in order to make people--in order to 
punish people for application of crime.
    Mr. Jordan. The gentlelady's time is expired. The gentleman 
----
    Ms. Plaskett. Thank you.
    Mr. Jordan.--from North Carolina is recognized.
    Mr. Meadows. Thank you, Mr. Chairman.
    As we look at this, this fundamental question of free 
speech and where we crossed the line is certainly something 
that is not new in terms of how we argue this point, and yet 
here I find it interesting today that some of the direction we 
are going seems to be at odds with what we have looked at 
institutions of higher learning and being the beacon of free 
speech, which would not normally be the norm, and now, all of a 
sudden, we are there.
    Without giving the name of the particular university, I was 
really surprised to find that there was a free-speech zone that 
allowed to actually be out of the mainstream view of most 
people, and they allowed you to write in chalk, but it was the 
chalk that was written in, the word Trump was there and all of 
a sudden people got fearful for Trump being written in chalk.
    Now, I went by this and I can't imagine anybody being 
afraid of a chalk drawing on a sidewalk. And if that is the 
case, that I would say that there are probably bathrooms all 
over this country where people would not want to go in for fear 
of what they may see on a bathroom wall.
    So let's don't take it to extremes and let's make sure that 
we understand that free speech is the bedrock of who we are. It 
is truly what we must fight for, and if we start to take it to 
extremes, we have a problem.
    That being said, as an evangelical, I come out very 
strongly in defense of my Jewish friends who truly--who have 
had persecution for years, and yet somehow on college campuses 
it is not okay to defend that. In fact, we go the other way to 
suggest that that they shouldn't be defended, and I find that 
offensive. And until we get that right, we are going to have a 
number of issues.
    So, with that opening statement, let me go into a couple of 
questions. Mr. Zimmerman, I am a little concerned, and I 
understand that you perhaps have been critical of your previous 
alma mater we might say or place of employment, Evergreen State 
College, because I look here and we have had $22 million in 
grants and scholarship aids that have gone to them. We have had 
over $7 million in Federal grants that have gone to them. We 
have had another $15 million in student loans, and yet we are 
seeing a chilling effect on free speech. Do you think they are 
getting it wrong?
    Mr. Zimmerman. Yes, I do.
    Mr. Meadows. Okay, thank you. And I assumed that you would 
say that. Do you think that they took bad advice from someone 
when they were invited here to testify and they said that a 
Member of Congress said that they shouldn't come before the 
Oversight Committee to defend their position? Do you think that 
that was misinformed?
    I can answer it. The answer is yes. Would you agree with 
that?
    Mr. Zimmerman. That is not for me to say.
    Mr. Meadows. Well, would it be for you to say to have said 
if we are going to take away Federal dollars from universities 
who will not truly defend free speech, that that would be 
appropriate? I am sure that they would want to weigh in on 
that.
    Mr. Zimmerman. Oh, I believe every administrator on every 
campus ought to be defending free speech, absolutely.
    Mr. Meadows. All right. So, Mr. Lawrence, let me come to 
you because I understand with your new position at ADL, of 
which many times people on my side of the aisle would see them 
as being in contrast to that--I don't. In fact, I have 
encouraged my son to actually join you in really fighting for 
those things that are critical. But I am troubled by one part 
of your kumbaya opening testimony.
    Mr. Lawrence. I take it you mean that as a compliment, 
Congressman.
    Mr. Meadows. Well, I wouldn't take it that way yet, so 
let's go ahead ----
    Mr. Lawrence. I'm listening.
    Mr. Meadows.--and go there. Here is my concern, because in 
your previous career you talked about, well, we are all about 
free speech and we are really there, and yet there was a 
certain young lady, a Somali-born activist that was disinvited 
from getting an honorary degree at your direction, and it was 
in 2014 where Ms. Ali was disinvited because, quote--the 
University defended this decision saying it could not, quote, 
``overlook certain of her past statements that are inconsistent 
with Brandeis University core values,'' close quote.
    Now, the problem is she is espousing anti-Islamic views and 
the promotion of women's rights, so which one of those are 
against their core views?
    Mr. Lawrence. Well, first of all, neither of those. The --
--
    Mr. Meadows. So, they are both your core views?
    Mr. Lawrence. But the--what I would say--no, I would say 
neither of those was the subject of ----
    Mr. Meadows. So, why did you disinvite her when she is 
being a true activist? Do you think that some terrorist in some 
foreign land are upset and fearful for the life because of her 
words?
    Mr. Lawrence. No, I would say two things, Congressman. 
First of all--and I think it's critically important ----
    Mr. Meadows. So, was this a correct decision?
    Mr. Lawrence. If I may respond?
    Mr. Meadows. Respond to that one first, and then I'll let 
you go ahead and opine on the other. Was this a correct 
decision?
    Mr. Lawrence. Yes, I believe that was a correct decision.
    Mr. Meadows. Based on what?
    Mr. Lawrence. May I answer?
    Mr. Meadows. Sure.
    Mr. Lawrence. First ----
    Mr. Meadows. Briefly. I only have five minutes.
    Mr. Lawrence. Well, I'll use as little of your five minutes 
as I can to give a full answer.
    Mr. Meadows. Okay.
    Mr. Lawrence. First, in terms of this hearing and 
particularly relevant to this hearing, nothing in this decision 
was about free speech. She had--my entire time as president--
and I have every reason to believe my successor would say the 
same thing--an open invitation to speak on campus, so this was 
not about free speech.
    Mr. Meadows. So, it was just about honoring her free 
speech?
    Mr. Lawrence. It was about honoring the same way ----
    Mr. Meadows. So, you didn't want to honor her free speech 
----
    Mr. Lawrence. It's not about ----
    Mr. Meadows.--that protects women?
    Mr. Lawrence. I--her speech about women is admirable and 
was the reason in large part for the original invitation. There 
was speech that specifically said--that specifically said that 
Islam should be crushed. And when she was asked--when she--this 
is on the record. When she was asked, ``You mean radical Islam, 
you don't mean all Islam?'' She said, ``No, I mean all Islam.'' 
This is in direct response to that question. ``It must be 
crushed and something new built on its level.'' If someone had 
said that about Christianity, if someone had said that about 
Judaism, that is someone who would not have been honored by 
Brandeis University. Would they have been free to speak? 
Absolutely.
    Mr. Meadows. So, I assume since you pulled away her 
doctorate, you invited her back to give lectures on a regular 
basis, right?
    Mr. Lawrence. Did that publicly and did that personally and 
privately ----
    Mr. Meadows. And so she did? She felt welcome to do that?
    Mr. Lawrence. I can't say whether she felt welcome or she 
----
    Mr. Meadows. I can. So, did she feel welcome from you, Mr. 
Lawrence?
    Mr. Lawrence. She did in fact not come to campus for a 
public event. She did come to campus subsequently for events, a 
program at the business school. But she had a standing 
invitation that was ----
    Mr. Meadows. So, do you not see what you did had a chilling 
effect on her free speech? You know, she is out there actually 
----
    Mr. Lawrence. I would put it in the same category, 
Congressman, as a ----
    Mr. Meadows. I know you would, but--I wouldn't put it in 
the same category as what? Go ahead. I will let you finish.
    Mr. Lawrence. All right. A university--a faith-based 
university that said that although students are free to express 
prochoice views, we will not give an honorary degree to someone 
who is an advocate ----
    Mr. Meadows. So, are you saying that what you should do is 
actually--I will yield back.
    Ms. Strossen. Time, place, and manner.
    Mr. Lawrence. I may not be the only one in the room who 
wanted to hear how that sentence ended.
    Mr. Meadows. Yes. So much for free speech.
    Mr. Jordan. And you all know Mr. Meadows is my best friend 
in Congress so--the gentleman from Maryland, the professor, is 
recognized.
    Mr. Raskin. Mr. Chairman, thank you for convening this most 
fascinating hearing that I have experienced in my six months in 
Congress, so I appreciate your very much doing it.
    I wanted to give a quick shout-out to Taylor Dumpson, who 
is at American University where I have been a professor of 
constitutional law for the last 27 years. So, you guys have 
entered my world of constitutional law and the First Amendment, 
so I could be here for hours with you, but I have boiled it 
down to four questions. I'm going to try to get them all out, 
direct them to specific people, and if you would take notes if 
you would and give me an answer back, and maybe I will follow 
up if I can.
    I tell my students at law school there are only two things 
you have to fear: the Socratic method and the platonic 
relationship. You have got to deal with it on your own.
    All right. Let's start with this. Free speech is like an 
apple. Everybody wants to take just one bite out of it. 
Somebody doesn't like left-wing speech, take a bite. Somebody 
doesn't like right-wing speech, take a bite. Somebody doesn't 
like Nadine Strossen's eloquent defense of pornography, take a 
bite. Some people don't like anti-pornography speech, and so 
on. At the end, there is nothing left of the apple if you are 
not willing to stand up for the whole thing. We devour the 
entire thing.
    Question for you, Ms. Strossen, at a time when freedom of 
speech is under attack at the highest levels of the government, 
the media is being demonized as the enemy of the people, press 
conferences are being carefully micromanaged, video being shut 
down, Washington Post, New York Times kicked out of the press 
room, and so on. How do we overcome the negative messages that 
are being sent about free speech at the highest levels of 
government so young people understand, as Congressman Meadows 
said, as others have said, that this is really who we are, 
number one?
    Number two, this is for Professor Lawrence. Speech exists 
in a context of power. For example, in Congress for decades 
before the Civil War there was a gag rule you couldn't mention 
slavery because of the power of the proslavery delegations. It 
could not be mentioned on the Floor of Congress. That was one 
of the things that precipitated the Civil War.
    Even today, it is a wonderful panel, but four of you have 
been chosen by the majority under our rules and one of you has 
been invited by the minority. So, speech always exists in the 
context of a set of complex power relationships.
    Now, in the 1960s and '70s, tens of thousands of people 
were suspended, expelled, or otherwise disciplined in anti-
Vietnam War protest from campuses. Their speech--there was an 
effort to drive their speech off of campus.
    When I was in college in the 1980s, we saw thousands of 
people disciplined for protesting the universities and 
corporate complicity with apartheid South Africa. The speech 
codes that were used at that time then were dusted off to make 
life miserable for right-wing activists like Mr. Shapiro and so 
on.
    Now, my question is a serious question, which is, is there 
an effort across partisan lines, left/right lines to come up 
with a model speech code that every university and college 
could adopt that everybody would support universally? Okay. So, 
Mr. Lawrence, that is for you.
    Number three--and maybe I will address this one to Mr. 
Zimmerman and Mr. Shapiro--are your concerns about free speech 
just for public universities like Berkeley or the University of 
Wisconsin or do they apply to private universities, too, like 
Yale and Harvard and Liberty Baptist--or Liberty University in 
Virginia; Georgetown, which has kicked off pro-choice speakers 
and shut down a gay student group at one point; Catholic 
University, which has kicked off of campus speakers defending 
prochoice?
    And then I looked at--and Liberty University, for example, 
says that profane language is not permitted. You are punished 
by a $250 fine and you have got to do 18 hours of community 
service if your speech is deemed profane. Any derogatory 
comments of a sexual or religious or racial nature will not be 
tolerated, also occasion for discipline.
    Bob Jones University, which says there is to be no 
proselytizing on campus based on Calvinism or Arminianism, 
whatever that might be. And other use of profanity or 
euphemisms will be occasion for discipline. Euphemisms are 
against the rules there. So, should we be equally concerned 
about private universities that have a religious heritage like 
Bob Jones, Liberty, Yale, American University, which has a 
Methodist--or are we just concerned about the public 
universities? I will leave that one for you.
    And finally, fourth question for Mr. Carolla. The lost 
great fine art of heckling in America, if you go back and read 
the Lincoln-Douglas debates, there was lots of heckling, but 
they would interject something and they would wait for an 
answer, and Lincoln and Douglas incorporated it into the 
debate. Today, heckling is all about getting a bullhorn and 
shouting somebody down, which is stupid. I mean, that is just a 
blunder of this generation if that is what they are doing. Can 
we restore an art of heckling that allows some reasonable 
interchange between the audience and the speaker without 
shutting down speech on campus? There we go.
    Ms. Strossen, to you.
    Mr. Jordan. That is a great approach ----
    Ms. Strossen. Oh, I thought I ----
    Mr. Jordan.--five questions ----
    Ms. Strossen. I thought this was a take-home exam.
    Mr. Jordan.--or four questions in five minutes. Now, you 
need another five minutes for them to respond. This is awesome.
    Mr. Raskin. You have been very liberal, Mr. Chairman, very 
liberal today.
    Mr. Jordan. I know I have been.
    Mr. Carolla. Was I supposed to make fun of your hair during 
that or--I just didn't know if you're asking me to heckle--
perhaps Professor Dreyfus could weigh in on this one.
    Mr. Jordan. I think you got the answer to the fourth 
question right there.
    Ms. Strossen. Professor Raskin, I thought this was going to 
be a take-home exam, but I'm happy to answer it orally now.
    You know, I was going to quote the title of Nat Hentoff's 
book Free Speech for Me--But Not for Thee: How the Left and 
Right in America Are Constantly Censoring Each Other. So, I 
found it very helpful in my education and my advocacy on free 
speech to always give an example that will bother that person. 
If you hate the media for this reason because they are giving 
this message that you disagree with and you therefore think 
government should have the power to censor messages offensive 
to minorities, let me give you a counterexample where you are 
in an environment where you are considered a minority and your 
view is a minority view and--or the other way around and 
therefore can be subject to censorship.
    Unfortunately, given the diversity of environments we have, 
including some of the private universities that you've cited, I 
can give you an example where, for one campus where perspective 
A is censored, there's another campus where perspective anti-A 
is censored, and that's why we have to maintain neutrality. But 
I think as an educator we have to give concrete examples. The 
abstraction is not going to be persuasive.
    Mr. Raskin. Thank you.
    Professor Lawrence.
    Mr. Lawrence. Can there be a model speech code that 
everybody will agree on, I guess that's an easy one. The answer 
almost certainly is no. Can we make an effort in that 
direction? I think the answer there is yes. And it will look 
something like this. An overwhelmingly presumption--
overwhelmingly strong presumption in favor of protection of 
free speech certainly on campuses of all kinds for all comers 
who belong on those campuses, that's principle number one.
    Principle number two, there's a limiting principle that is 
the kind of thing that Professor Strossen and I have been 
talking about where you actually have an intent to do harm, to 
threaten, to intimidate; not to confound, not to trouble but to 
actually literally do harm.
    And then principle number three is that what is the 
obligation of a university even in the realm of protected 
speech when it is hateful speech? I think those three 
principles in some form or another are going to form the model 
of the kind of speech codes that should get the broadest 
consensus that you can. The more specific you try to be about 
this is in and this is out, you're going to start making 
mistakes, and that's why virtually every university's speech 
code has been struck down by university--by courts.
    Mr. Jordan. Mr. Shapiro I think and then Mr. Carolla.
    Mr. Shapiro. Yes, I mean, as far as the distinction between 
public and private, I do make a very strong distinction between 
public and private universities when it comes to speech rights 
because private universities I believe should have the--like a 
private business, the broadest possible purview to act in 
accordance with their values ----
    Mr. Raskin. To censor speech?
    Mr. Shapiro. If they are a private university, sure, which 
is why when I went to DePaul University and they threatened to 
arrest me, I left the campus. If they had done that at Cal 
State L.A., I would have stayed and been arrested.
    Mr. Raskin. Okay. But, Dr. Zimmerman, do you agree with 
that? Do you think there is a free speech valuation to be 
fighting for on private campuses as well as public?
    Mr. Zimmerman. Absolutely, but it's a different kind of 
free-speech right. That is the right to free speech is 
absolute--should absolutely be there because it's a college 
campus. In--if we value college education, we have to value 
alternative views. If we value the liberal arts, we have to 
value other people's ideas. We can't have meaningful discussion 
if we only have one side of that discussion. But that's 
different than the State mandating that you have to be able to 
do that.
    Mr. Jordan. Mr. Heckler?
    Mr. Carolla. Geez, I want to talk about my white privilege 
so badly. I graduated North Hollywood High with a 1.7 GPA. I 
could not find a job. I walked to a fire station in North 
Hollywood, I was 19, I was living in the garage of my family 
home. My mom was on welfare and food stamps, and I said, can I 
get a job as a fireman? And they said no, because you're not 
black, Hispanic, or a woman. We'll see you in about seven 
years. And I went to a construction site and dug ditches and 
picked up garbage for the next seven years.
    I got a letter in the mail sent to my father's house saying 
your time has come to do the written exam for the L.A. Fire 
Department. I took it, and I was standing in line and I had a 
young woman of color standing behind me in line and I said, 
``Just out of curiosity, when did you sign up to become a 
fireman? Because I did it--or person--seven years ago?'' And 
she said Wednesday. That is an example of my white privilege. 
It's--I think it's an economic privilege more than it is the 
color of your skin.
    That being said, heckling people, busting their chops, 
making fun of them is an actual overture of love, friendship, 
and it's a positive thing. My friends I hang out with, Jimmy 
Kimmel and his cousin and many, many other comedians, Jeff Ross 
and people of that nature, and that's all we do, and the day 
that stops, that'll be the day I know they don't like me 
anymore.
    Now, obviously, doing it to strangers on campus is a 
different story, but lightening the mood a little bit and 
lightening up a little bit in general when people--you know, 
I'm an atheist and I go out and do things with Dennis Prager. 
He's a devout Jew. He loves it when I make Jew jokes. I love it 
when he makes atheist jokes, and that's how we know that we're 
friends. And I'd say the same for Ben Shapiro as well, although 
I don't know if he loves it when I make the Jewish jokes.
    Mr. Shapiro. Oh, no it's fine with me.
    Mr. Carolla. Okay.
    Mr. Raskin. You guys are clearly not running for Congress.
    Thank you very much for your testimony, all of you. I yield 
back, Mr. Chairman.
    Mr. Jordan. Thank you, Professor.
    We now recognize the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Yes, just one quick comment for Mr. Zimmerman 
before I ask him a question. In your testimony, you said higher 
education has been and remains the single best way for 
individuals to dramatically improve their socioeconomic status. 
There is a little bit of snobbery there I don't like, but the 
point I will make is, at least in my district and I think 
around the country, we have a lot of young people taking this 
stuff to heart, and they wind up graduating from an institution 
like yours with $50 or $60,000 in debt. They really do not find 
a way to move up economically and they wind up having to go 
back to a tech school or a trade school, which are very 
wonderful when they are 39 or 40 and their whole life is 
delayed. And I want you to be conscious of this kind of 
unqualified worship of all forms of secondary education because 
I think it is getting a lot of people into a lot of trouble.
    But I will ask you a question. At Evergreen University--I 
don't know how many professors you have there, but could you 
tell me about how many professors you have and how many you 
think, say, voted for Trump in the last election?
    Mr. Zimmerman. Full-time, part-time, we have about 180 
probably. I have not a clue of who they voted for.
    Mr. Grothman. You never talk about politics with any of the 
people hanging around the campus?
    Mr. Zimmerman. I--we certainly talk politics occasionally. 
I suspect not many of them voted for Trump, but I couldn't tell 
you the ----
    Mr. Grothman. Did any of your buddy say they voted for 
Trump in all the times you talk to them?
    Mr. Zimmerman. There are a couple of people on campus who 
have, but not very many I suspect.
    Mr. Grothman. Not very many.
    Ms. Strossen, NYU Law School, I am going to give you the 
same question.
    Ms. Strossen. New York Law School. Again, I'll go to 
surveys that reflect that the overwhelming majority of faculty 
members are Democrats and have given--voted for and given money 
to Democrats. And I think this is a serious problem because 
when we talk about diversity, it should include ideological 
diversity, as well as other kinds of diversity. And I'm very 
supportive of a number of initiatives that have been started in 
the recent past to address this problem, one of which is called 
the Heterodox Academy, which was spearheaded by Jonathan Haidt, 
who does teach at NYU.
    And there's a similar project that's done to give--called 
the Madison Project that's done together by Cornel West, 
African-American, extremely liberal, some would say radical 
professor, together with Robert George, a conservative white 
male, Princeton professor.
    But all of us agree that education suffers when we have too 
much agreement, too much political orthodoxy ----
    Mr. Grothman. Right.
    Ms. Strossen.--in any direction.
    Mr. Grothman. Right. Do you--how many professors do you 
know? I mean, you guys, I assume, unlike--here on the 
Evergreen, you must talk about who you vote for. How many do 
you know on a personal level that voted for Trump in your 
faculty?
    Ms. Strossen. You know, I didn't actually ask people for 
whom they voted, but my educated guess would be ----
    Mr. Grothman. People must talk about it in the hallway.
    Ms. Strossen. Respecting privacy, my educated guess would 
be extremely few.
    Mr. Grothman. Could it be none?
    Ms. Strossen. Extremely few. But here's something sad. I do 
know people ----
    Mr. Grothman. Okay.
    Ms. Strossen.--who privately supported Donald Trump but are 
embarrassed to say that they voted for him.
    Mr. Grothman. Okay. So that kind of muzzle--okay. And my 
question for Mr. Carolla, and I am sorry what you had to go 
through, the prejudice in our country, but ----
    Mr. Carolla. I landed on my wallet.
    Mr. Grothman. Do you believe part of the problem here is it 
is easy to hate people and demonize people if you don't know 
any people like that? It may be one of the reasons why we seem 
to have difficulty with free speech on college campuses the way 
you wouldn't have difficulty in other American institutions is 
because some of the faculty members on college campuses, they 
can spend, you know, extensive periods of time without talking 
to anybody who has political opinions significantly different 
than their own. Is that part of the problem?
    Mr. Carolla. Oh, absolutely. And it's--I'm sort of 
bewildered by it because knowing guys like Dennis Prager and 
Ben Shapiro, and knowing them to be great guys or even 
sometimes seeing what happens when Dr. Drew says something and 
the Twittersphere goes ballistic and what--talking about what a 
bad person he is or what have you, yes, when you get to know 
almost anybody, you look at them as a person rather than an 
idea, and we need to look at people as human beings, not ideas 
or representatives of ideas. And it always helps when you're 
exposed.
    I personally--this may sound like a sidebar, but I grew up 
playing football. I played 10 years of organized football. I 
played with every different kind of human being except the Jews 
actually, Ben.
    Ms. Strossen. Females?
    Mr. Carolla. Maybe the holder.
    Ms. Strossen. Females?
    Mr. Carolla. Yes.
    Mr. Shapiro. Yes, the punter.
    Mr. Carolla. Yes, they cheered. Yes, it was awesome. So I 
got exposed--everyone realized that everyone who came from 
every different neighborhood was, you know, there for one 
reason, and that was trying to win a game, and I think it 
helped a lot in my view of life. And then later on when I 
stepped on a construction site, I got the same thing again. So, 
I do feel like surrounding yourself with diversity and ideas, 
as well as skin color, is a good thing.
    Mr. Grothman. Okay, Mr. Shapiro, I'm going to ask you to 
follow up on that. Just, you hear things in this job, people 
come up to you, and I do believe there is certainly departments 
on major American campuses in which you can spend, you know, 
all day walking up the hallways where the faculty work and 
never be exposed to anybody who voted for a candidate that 
about half of the American populace did, which is kind of 
amazing that you find such, you know, lack of diversity ----
    Mr. Shapiro. Oh, yes. And ----
    Mr. Grothman.--anywhere. And I wondered if one of the 
reasons for the left's rage is because they sometimes do go to 
work on college campuses and they don't have any friends who 
even voted for somebody who about half the American public 
voted for, which is hard to believe there is anywhere in 
society that kind of cloistered, but I am afraid on college--I 
wonder if that is one of the reasons why you have this hatred 
for, say, people who believe in, you know, more conservative 
half of the American populace.
    Mr. Shapiro. I think you do have some leftist professors 
who attempt to, you know, be open to other ideas. I mean, Lani 
Guinier was one of my professors at Harvard Law school, and she 
ended up writing a job recommendation for me because we got 
along so well, and she's very far to the left. But that's more 
a rarity than it is the common thread.
    I mean, even if you put aside President Trump, the fact is 
that--and I think the polls show that well under 10 percent of 
the faculty at Ivy League schools voted for Romney in 2012. So, 
I mean, this has been very consistent, and this is why I think 
you are seeing some of the violence. When I spoke at Cal State 
L.A., you actually saw the professors calling me a member of 
the KKK before I got there. And so most of the students had no 
clue who I was, but they were perfectly willing to go out in 
protest and beat people up.
    Mr. Grothman. Mr. Zimmerman, are you doing anything--I 
assume your campus--I mean, Evergreen has got kind of a 
reputation. Are you doing anything to ----
    Mr. Jordan. We will come back to that. We have got to move 
on. I thank the gentleman, and I apologize.
    Mr. Grothman. All right.
    Mr. Jordan. We are trying to give everyone a little extra 
time, but we can't go too much longer.
    The gentleman from Florida is recognized.
    Mr. DeSantis. Well, thank you, Mr. Chairman, and thanks to 
the witnesses.
    Ben Shapiro, who came up with the Thug Life Ben Shapiro?
    Mr. Shapiro. I have no idea. It wasn't me. I have never 
listened to a complete rap song in my entire life.
    Mr. DeSantis. It is funny and it is well done and it has 
some of your greatest hits.
    Let me ask you. You mentioned the professors. Obviously, 
the professors overwhelmingly are on the left. Some are fair. 
Some are more pushing the ideology. But I wonder. I see some of 
these things that you have dealt with, others. I mean, is it 
the professors doing this or are these students just 
predisposed to do this? It seems like there are a lot of 
radical students anyway, and a lot of them are kind of going to 
do this even if their professors weren't egging them on. Is 
that true?
    Mr. Shapiro. So I think there are three groups. I think 
there are usually a couple of radical professors who egg them 
on, not the entire left faculty because that would be pretty 
much everyone but like a couple of radical professors who 
decide that they think it's worthwhile for there to be massive 
protests, some student organizers, and then very often lately 
you've been seeing people bust in from the outside. So, at 
Berkeley you saw people being--coming in from Antifa and 
integrating with the Berkeley student population and then doing 
acts of violence. At Cal State L.A. there were a couple of 
busloads of people who were bussed in. So, it's really those 
three groups I think.
    Mr. DeSantis. And when you are dealing with the anti-
Semitism and anti-Israel views on campuses, is that faculty-
driven or is that outside the university?
    Mr. Shapiro. Well, I mean, I haven't dealt with that as 
much because I think in the last couple of years most of the 
opposition has been coming from the Black Lives Matter 
movement, from the Bernie Sanders socialist wing of the 
Democratic party. It hasn't been coming too much from the 
Israel stuff because I don't speak about the Israel stuff all 
that often on campus. But, I mean, the--I know for a lot of 
Jewish students on campus it's very uncomfortable because there 
are a lot of professors who support boycott divestment and 
sanctions from Israel and activate their students to do the 
same.
    Mr. DeSantis. So, just from a conservative perspective, we 
look at some of what is going on on college campuses and we 
don't necessarily like it but, you know, we don't really want 
government involved in a lot of this anyway. But on the other 
hand, people will point out is we are funding these 
universities, so the American taxpayer is underwriting a lot of 
this stuff. So, is there a role for government, given that we 
are funding it or is it just the type of thing that, you know, 
we fund it and we still have got to just keep her hands off? If 
we weren't funding it, then I would think that there would not 
be a role for the Federal Government at all, but given--I mean, 
a lot of money is going to these universities.
    Mr. Shapiro. Yes. I mean, the Wisconsin law that's been 
discussed repeatedly has been I think a little bit unfairly 
maligned because people are refusing to read the end of the 
phrase in the law, which is that this is speech that interferes 
with the speech of others, meaning the--if you have 
administrators who are basically handing a heckler's veto to 
people who are standing up in front of other speakers and then 
attempting to block it, that's not actually free speech, that's 
trespass. So, I don't know that you need another piece of 
legislation. I think you do need enforcement of existing law 
that exists to prevent what is in fact criminal activity and 
not free speech activity.
    But there's going to have to be some sort of consequences 
for administrators who don't abide by the current law because 
what they're doing is they are essentially saying we can't shut 
down this speech but if you go and make a big fuss, then we'll 
say that in order to shut down the fuss, we have shut down the 
speech. And if they continue to do that, then I don't see, you 
know, why Federal funding should be going to--I don't see why 
my taxpayer dollars should be going to a university that bans 
me because the university refuses to protect my right to free 
speech.
    Mr. DeSantis. That is a good point. Now, you talked about 
the hierarchy based on identity in terms of who does--and I 
like a white male would be at the bottom kind of deal but, you 
know, how honest does even that standard apply? Because like 
somebody like a Justice Clarence Thomas, who obviously has a 
very compelling background, how would he be received at these 
universities in terms of his story, given that he is a 
constitutional originalist?
    Mr. Shapiro. Or Jason Riley from the Wall Street Journal. I 
mean, it's the--obviously, it's--the intersectionality in that 
philosophy is a stand-in for hard-core leftism, and it's just a 
way of using multiculturalism as the entr?e to leftist points 
of view. It isn't actually--as you say, if Clarence Thomas says 
something, nobody on the left is going to say, well, you know, 
he suffered as a black man, so his perspective is more valuable 
than Joe Biden's perspective on a particular issue. You're not 
going to hear anyone on the left ever said.
    Mr. DeSantis. Carolla, thanks for coming.
    Mr. Carolla. Thank you, man with the tan from Florida.
    Mr. DeSantis. Trying my best.
    Mr. Carolla. We don't have to recognize him as the man from 
Florida. We can all see where he hails from.
    Mr. DeSantis. Yes, well, I appreciate that. It is hot 
there. We don't have the temperate climate that you guys have 
in L.A., so it is 95 and heating right now.
    Mr. Carolla. Well, it's dry, but there are a lot of 
blowhards there in L.A., so there's a lot of hot wind blowing 
around.
    Mr. DeSantis. So, I mean, you have kind of come here, we 
appreciate it. You know, you look at this experience. How do 
you view kind of what goes on in Washington as potentially 
being able to help stand up for free speech? Because, you know, 
we get involved in things, and a lot of times we make it worse.
    Mr. Carolla. You know, I've--I hosted a show called 
Loveline for over a decade, and I had a very unique perspective 
because I was able to talk to troubled kids, teenagers, two 
hours a night for a decade, and I really got to learn something 
about young people and how they work and what works and what 
doesn't work. And, you know, people would say well, you're not 
a professor, you never read a book, you never went to college, 
how are you an expert on this? And I say, well, I'm a 
journeyman carpenter as well. I've never read a book on 
carpentry, and who would you like to build your house, someone 
who read a book on it or someone who just did it every day for 
over a decade?
    And I learned that all of these problems that we're talking 
about, free speech, discrimination, hatred toward other people 
and drug addiction, violence, crime, it all stems from the 
family. And when the family is intact, much of this stuff just 
goes away. You don't have to legislate it away. It just goes 
away because people are brought up in intact families with 
decent, caring parents, whatever their color, whatever their 
background is, and then they produce little decent individuals 
who go off to college or to a job, place of work, and they 
don't need to be coached up and they don't need to be 
legislated and they don't need to be bloviated by people like 
us. They grow up in an intact family.
    So my feeling is all the stuff we're talking about is at 
the outside of the rim. The hub is the family, and the 
discussions should center around the family and who is creating 
these people who think it would be a good idea to take a 
baseball bat to the window of a Starbucks in their community.
    Mr. DeSantis. Well, I think that is well put, and if we 
could deal with that core, the free-speech stuff and a whole 
host of other problems would go, and that is better than any 
tax bill or anything else we could be doing. And obviously, it 
is not going to be government's role per se; it is a societal 
thing.
    But, Mr. Chairman, thanks for your leadership on this 
issue.
    Mr. Jordan. Well said. Well said.
    To our panel, my goal was 12 o'clock. We are going to be 
pretty close. It may go a few minutes after. But if that is 
okay with everyone, we have two others and then maybe a couple 
other questions from the ranking member and myself to close 
things out.
    Mr. Hice from Georgia is recognized.
    Mr. Hice. Thank you very much, Mr. Chairman. I appreciate 
you allowing me to be a part of this hearing today.
    Mr. Shapiro, I feel for you, and I met just recently with a 
group of Jewish students who had experienced a great deal of 
very difficult--from lack of free speech to harassment and all 
sorts of things on the various college campuses that they 
represent.
    I am also an evangelical Christian, and I have seen it on 
the other side as well and have been, in fact, on the frontline 
of this for long, long time where Christian students are 
disallowed to even share their faith. They are restricted to 
free speech zones where Christian organizations are kicked off 
campuses or even forced to allow non-Christians to take 
leadership roles in the Christian organization, like how 
backwards can this possibly be? And in many instances Christian 
perspective is even looked upon as hate speech, which is 
absolutely astounding to me where this is going.
    And I want to transition, Ms. Strossen, to you. I 
appreciate you being here as well. Are you familiar with 
implicit bias testing?
    Ms. Strossen. Yes.
    Mr. Hice. Okay. This is intended to detect biases or 
prejudices from individuals, various tests. Some colleges are 
actually using these tests now to force those who fail the test 
to be cured of their biases, prejudices, whatever it may be, in 
essence creating on campuses thought police. You are aware of 
this. I see it by your reaction.
    Ms. Strossen. I am shocked, and of course I am against 
creating thought crimes. I am completely in favor of 
information. I've taken one of those implicit bias tests and 
it's very interesting. So, if it's presented to you as a way to 
expand your horizons about subconscious or semiconscious 
assumptions and stereotypes, to which all of us are prone, many 
atheists have negative stereotypes about evangelicals, and vice 
versa.
    Mr. Hice. Sure, we all have those. Are you ----
    Ms. Strossen. But we should overcome them through 
education, not through indoctrination.
    Mr. Hice. Well, and they are not necessarily wrong one 
thing or another.
    Ms. Strossen. In some way it's a matter of belief.
    Mr. Hice. We have got to accept the fact that you are 
different from I am ----
    Ms. Strossen. Absolutely.
    Mr. Hice.--and I am different from you, and it is okay.
    Ms. Strossen. Absolutely. We can disagree.
    Mr. Hice. So college really has no business trying to cure 
people ----
    Ms. Strossen. Absolutely not.
    Mr. Hice.--of their background, what they ----
    Ms. Strossen. That would be a violation of everything the 
First Amendment stands for, everything that academic freedom 
stands for.
    Mr. Hice. Absolutely. Let me kind of go on. What are some 
of the biases that are identified as needing to be cured? Are 
you aware of that?
    Ms. Strossen. I'm sorry. I ----
    Mr. Hice. All right. Well, let's go on. I don't have time 
to dig into this. There is so much more to deal with. But would 
you not agree that when a university or college, whatever, 
starts branding people as hateful, as bigots, as politically 
incorrect, as whatever and then creating an effort to cure them 
of those deficiencies, the school is in itself creating a 
thought police environment and is very dangerous?
    Ms. Strossen. And it's also something that violates 
equality principles, right? We're talking about trying to 
create campuses where everybody feels welcome and included and 
part of the community, and to stigmatize people because of 
their beliefs or their ideas is as offensive to equality and 
free-speech principles as stigmatizing people because of the 
color of their skin.
    Mr. Hice. Not to mention that, it is also un-American and 
unconstitutional for ----
    Ms. Strossen. And bad education and ----
    Mr. Hice. Absolutely.
    Ms. Strossen.--and ineffective. You're not--if--let's 
assume the worst. Let's assume somebody is a convinced 
hatemonger. You're not likely to dissuade that person from 
discriminatory views by treating that person as an outcast. 
That's the least effective way to persuade that person to 
change his ideas.
    Mr. Hice. Absolutely. And I appreciate what you said a 
while ago, too, about the vast majority of professors are 
Democrat or left-leaning, whatever it may be. While we were in 
fact sitting here, I did a quick search. It is not from my 
State, but University of Georgia profs are 12 to 1 Democrat 
over Republicans. I think from what you are sharing and from my 
experience, that is probably fairly consistent across the 
country. I can't fully explain it, but it does have an impact 
on the overall culture that is created and the resistance 
towards those who disagree with a political, cultural view.
    Ms. Strossen. And I'm sure you and I would make the same 
negative conclusion if it was skewed the other way ----
    Mr. Hice. Sure.
    Ms. Strossen.--if the--right.
    Mr. Hice. Absolutely. Now, we have got these speech codes 
in place. It has been identified already a lot about this. We 
have court decisions that, as one of you mentioned a while ago, 
the court decisions overwhelmingly have ruled against the 
majority of the speech codes in universities, and yet to this 
day about 40 percent of our colleges still have speech codes in 
place against what has been determined by the rule of law. And 
why is that?
    Ms. Strossen. You know, law is not self-enforcing. The 
Constitution is not self-enforcing. We still have segregated 
schools all these decades after Brown v. Board of Education, 
and that is why it is so important for organizations like the 
ACLU FIRE, the Foundation for Individual Rights in Education, 
to be able to bring lawsuits to actually enforce principles. I 
mean, the examples of using so-called time, place, and manner 
restrictions as a pretext for suppressing ideas, that's illegal 
and unconstitutional, but you have to bring a lawsuit in order 
to vindicate that position.
    And if I may say, Congressman, just last--a couple of weeks 
ago, the United States Supreme Court unanimously said speech 
that demeans on the basis of race, ethnicity, gender, religion, 
age, disability, or any other similar ground is hateful but the 
proudest boast of our free speech jurisprudence is that we 
protect the freedom to express the thought we hate. If only we 
could have the same unanimity in society as a whole as those 
very ideologically diverse Justices have on that cornerstone 
principle.
    Mr. Hice. Mr. Chairman, I am not going any further because 
I know I am not even a part of this subcommittee, and again, I 
appreciate you letting me be part of it. I have got a lot more 
to cover, though, but where this is going with the clear 
distinction between one viewpoint versus another, creating a 
culture of intimidation and silencing a particular viewpoint 
has got to be dealt with, and I thank you for leading this 
hearing.
    Mr. Jordan. I thank the gentleman and now recognize the--
wait a minute, I now recognize the second tan man from Florida, 
Mr. Rooney is recognized.
    Mr. Rooney. Mr. Chairman, thank you very much for the 
opportunity to make a few comments about free speech here and 
for you taking the liberty of highlighting the problems that we 
face.
    Under the guise of protecting students, the freedom to 
express views not deemed acceptable to an intolerant, 
judgmental elite is being attacked and denounced by students, 
professors, and occasionally administrators. These people have 
the intellectual arrogance to think they should decide for all 
of us which ideas are to be heard and which are not. This to me 
reeks of totalitarianism, which, as we all know, creeps in 
gradually until it takes root.
    In The Road to Serfdom, Friedrich von Hayek described how 
the threat of totalitarianism Europe in the 1930s was 
foreshadowed by a society moving away from the basic ideas on 
which European civilization had been built. This behavior in 
the United States today contradicts the original concept of 
what a university should be and how it originated in its 
medieval beginnings as venues for promoting the free exchange 
and rigorous debate.
    Colleges use many different methods to suppress free 
speech. One such example are these free-speech zones, which 
have been talked about here on campus. To me, the mere idea of 
a free-speech zone is wholly incompatible with the Constitution 
of the United States, and it turns the words free speech into a 
gross oxymoron. This transforms an absolute truth, a right 
guaranteed under our Constitution, into a negotiable, transient 
morsel of policy. I wonder which of our constitutional rights 
and liberties will be next?
    An ironic case at Kellogg Community College in Michigan--
you can't make this stuff up--students were arrested for 
handing out copies of the United States Constitution without 
the administration's permission. How incredible is this? In 
their greatest hopes, Marx and Lenin couldn't have been bold 
enough to try this. Cancelation of conservative speakers and 
events on campus has become another method for constraining 
freedom, as has been talked about here. Following protests and 
sometimes riotous behavior by the scripted biased students and 
faculty, many administrators and boards of trustees seem to 
prefer acquiescence and political correctness instead of 
confrontation, willing to accept the connected erosion of 
freedom.
    In 2014, protests by leftist students at Rutgers caused 
former Secretary of State Rice to cancel a commencement speech. 
This is an individual who rose up from desperate circumstances 
with a life of persistence and achievement like none other. 
Condi is certainly the American dream. This here again violent 
student riots at Berkeley caused a school to cancel speech by 
the conservative writer and speaker Ann Coulter. So much for 
colleges fostering an environment of free speech.
    Further, many college professors seek to indoctrinate and 
discourage free debate in class. Much has been written about 
this, leading to something called groupthink. The desire for 
conformity replaces rational thought, and conservative opinions 
are routinely suppressed, as has been talked about in this 
hearing today. This lack of ideological diversity in academia 
undermines the free exchange of ideas, and it is no wonder that 
so much has been written about the lack of critical thinking 
skills of younger Americans.
    Colleges and universities that refuse to respect and 
enforce our laws and the Constitution should not be subsidized 
by the United States of America. Our taxpayers should not have 
to pay for infringements against our Constitution. If schools 
want to go it alone free of taxpayer money, they can and should 
do whatever they want to do, and many has been said that about 
here today. The schools that take our taxpayer money should 
follow the Constitution and be thankful that we have it.
    Not all colleges and universities have succumbed to this 
political correctness. We know that Mitch Daniels made a very 
strong statement in 2015 at Purdue to protect academic freedom 
and individual liberty. John Ellison at the University of 
Chicago, not exactly known as a conservative bastion, did the 
same thing, denouncing these free-speech zones and things like 
that.
    And I would like to also finish with the idea that the real 
world, the one where us carpenter apprentices and journeymen 
carpenters grow up, by the way, doesn't recognize free-speech 
zones. Colleges and universities that promote them are 
committing what I consider to be educational malpractice, 
failing to prepare students for a life beyond the cocoon of 
campus. Higher education should be a platform for the peaceful 
exchange of ideas and debate and formation, where learning 
comes from having one's beliefs challenged and having to defend 
them. That is what the original university was about, and that 
is what we need in America. If we can get back there, then 
maybe we will find that we have a new generation of critically 
thinking Americans that can take our country to even greater 
heights.
    Mr. Chairman, thank you very much for having me.
    Mr. Jordan. You bet. I thank the gentleman.
    The gentlelady from Florida is recognized, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. And, you 
know, we have had, I believe, a very robust conversation today 
about the First Amendment, which we know is guaranteed by the 
United States Constitution. We have talked about a lot of 
things, but we have also talked about a young woman who was 
attending American University, was elected as president of the 
student government by her peers, and instead of celebrating, 
was a victim of harassment, she was threatened, victim of cyber 
bullying and hate crimes. I believe that Taylor Dumpson 
represents thousands of students in this country who are just 
trying to live the American dream.
    And since one of my colleagues thought it necessary to 
issue out an apology today, I would like to issue an apology to 
Taylor Dumpson for what she had to endure, someone who was 
doing it right and was the victim of hate crimes, not just hate 
speech but hate crimes, as investigated by the FBI.
    That is my statement, Mr. Chairman.
    And I would also like to ask permission to enter a 
unanimous consent to introduce an article ``KCC responds to 
political organization's lawsuit'' into the record.
    Mr. Jordan. Without objection.
    Mrs. Demings. Thank you so much. I yield back.
    Mr. Jordan. I thank the gentlelady.
    We will close out here with a few more questions, but 
first, I do want to recognize Ms. Taylor Dumpson as well. 
Obviously, what happened to you on campus is wrong, should not 
be tolerated, and is just disgusting. But we appreciate you 
overcoming that. And the fact that you are a student government 
president, someday, you are going to be sitting up here doing 
this same kind of hearing, and we look forward to those days in 
the future as well.
    But my guess is at American University they probably had 
some diversity training. They probably had some bias training. 
So maybe this gets to the point Mr. Carolla made earlier. It is 
not all the bias training and diversity and these tests kids 
have to take now or students have to take now.
    Well, let me just go to Mr. Shapiro. Do you think the bias 
training is something that is actually helpful?
    Mr. Shapiro. I don't think it's effective. I think that, in 
fact, it tends to alienate a lot of the people who feel like 
I'm not a racist, why am I being forced to endure the 
implication that I'm a racist and I have the necessity of 
undergoing bias training.
    Mr. Jordan. Yes. I mean, it seems to me that either 
Americans--their bias training is not any good or it is just 
largely probably not ----
    Mr. Shapiro. People who tie nooses around bananas are not 
going to be dissuaded from doing so by bias training. They are 
garbage human beings.
    Mr. Jordan. To Mr. Carolla's point, right, it is a lot more 
about what kind of background and belief system they bring to 
the university.
    Mr. Carolla. I agree wholeheartedly. That starts at home. 
Anyone who has been in the corporate world knows you have to 
have sexual harassment training as well, and the cases of 
sexual harassment have probably gone up tenfold since the 
training began, so I don't see any direct line from training to 
effective application of it.
    Mr. Jordan. In fact, it could be almost the converse, 
right?
    Mr. Carolla. I feel it is, yes.
    Mr. Jordan. Yes.
    Ms. Strossen. But Mr. Carolla also talked about the 
positive impact of actually working together with a diverse 
group of people, and I think that's what we have to do. We have 
to bring people together in education and work and other 
contexts.
    Mr. Jordan. You know, and it has been my experience some of 
the strongest advocates for left policy and--but I always use 
the example one of my good friends is Dennis Kucinich, and you 
cannot get further apart than Jim Jordan and Dennis Kucinich, 
but we have respect--and a lot of times where we really work 
together is on civil liberty issues, these kind of issues. That 
is why I so appreciate this panel we have here today. I mean, 
that is how it is supposed to work.
    So, there was talk earlier about a speech code. It seems to 
me the speech code is the one that is right behind me, right? 
Isn't that the speech code in America, the First Amendment 
itself? Speech code and common sense, as Mr. Carolla has talked 
about.
    So, Mr. Shapiro, your thoughts on a speech code. Shouldn't 
it be the First Amendment? Shouldn't that be sufficient?
    Mr. Shapiro. Absolutely. And I think that we're moving into 
very dangerous territory when we start identifying speech as 
violence, and that I think is what's happening more and more 
often in our politics. I think it's happening on college 
campuses. When you start saying that what you say offends me to 
the point where I'm going to treat it as violence, then we are 
moments away from an actual violent conflagration, and that has 
to stop immediately.
    Mr. Jordan. Do you think, Mr. Shapiro, that some of the 
things we have seen from the Federal Government are 
contributing to the what I would describe as, you know, a crazy 
situation we see on many campuses, situations you have had to 
go through and live through? Do you think some of the things 
that the Federal Government has done are chilling free speech 
on college campuses? And specifically--and frankly, what 
prompted my renewed interest or greater interest I should say 
in this series of hearings we are having on the First Amendment 
was a few years ago when we discovered that an agency with the 
power and the ability to intimidate and impact people's lives, 
the agency known as the Internal Revenue Service, was 
systematically and for a sustained period of time targeting 
people for their political beliefs. Do you think that has some 
chilling impact on what may in fact be happening on our--what 
is in fact happening on our college campuses?
    Mr. Shapiro. I mean, sure, when people have an enormous 
amount of power, whether it's at an administrative level or at 
the Federal level, they tend to use it in ways that benefit the 
side that they control, and that's--that has--I mean, I think 
you've seen this--it's a completely different topic, but I 
think that you've seen this in the context of how a lot of the 
sexual assault hearings are taking place on campus now where 
they're taking place under title IX auspices and they don't 
actually follow any sort of constitutional due process 
procedures. That's an area where the Federal Government has 
gotten involved and really overridden individual rights.
    And, listen, nobody is in favor of sexual assault. Everyone 
wants to see rapists prosecuted, but we need to come back to 
some sort of rational standard of application, not just what we 
wish we could do in some sort of utopia.
    Mr. Jordan. Just two final points, Mr. Raskin raised the 
point earlier that the majority party invites four of the 
witnesses, that the minority party invites one. It is standard 
practice. I would point out of the four witnesses I think 
probably two come from--four majority witnesses, probably two 
come from the left on the political spectrum. Mr. Shapiro 
hasn't exactly been a fan of the current administration, and I 
don't know exactly what Mr. Carolla's--I tend to--I would think 
he is fairly libertarian but I don't know if he is Republican 
or Democrat.
    So, we tried to invite people who believe in the sign that 
is behind me, that is what we tried to do, and people who are 
willing to defend it, who are willing to say that this is 
paramount to the American experience and who we are as a 
nation, and that is what the series of hearings that we are 
undertaking in this committee are all about.
    So, final question is to the heckler in the middle. When is 
the movie coming out again?
    Mr. Carolla. No Safe Spaces, Dennis Prager and myself have 
gotten together to do this subject, but the 86-minute version 
of it not the 477-minute version. Yes, my bladder is very angry 
at you. I think it's coming out mid, early 2018, so look 
forward to that.
    Mr. Jordan. Well, we look forward to it as well.
    I want to thank each of you for being here today and 
participating in this important hearing, and we look forward to 
having more. And frankly, what we are going to do, we may 
invite some of you back, but we certainly want to have some of 
the students, maybe even some of them who are in the room--the 
gentleman from Alabama, I am sorry.
    Mr. Palmer. I just want to thank the students for coming, 
and I hope you look back on this and count this as one of the 
best days in your education that you have ever had.
    I yield back.
    Mr. Jordan. I thank the gentleman.
    With that, we are adjourned.
    Ms. Strossen. Thank you very much.
    [Whereupon, at 12:06 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
